                                                                   U.S. Census Bureau
                                                                   FY 2010 Performance and
U.S. Census Bureau FY 2010 Performance and Accountability Report




                                                                   Accountability Report                                                           Issued November 2010


                                                                                                                                                   CENSR-24
    USCENSUSBUREAU




                                                                   www.census.gov
                                                                   USCENSUSBUREAU                        U.S. Department of Commerce
                                                                                                         Economics and Statistics Administration
                                                                                                         U.S. CENSUS BUREAU
                                                                   Helping You Make Informed Decisions
                           U.S. Census Bureau
                     FY 2010 Performance and
                         Accountability Report                                Issued November 2010




                                   U.S. Department of Commerce
                                                    Gary Locke,
                                                        Secretary

                                                            Vacant,
                                                    Deputy Secretary

                            Economics and Statistics Administration
                                                  Rebecca M. Blank,
                                  Under Secretary for Economic Affairs

                                                  U.S. CENSUS BUREAU
                                                     Robert M. Groves,
                                                               Director




U.S. Census Bureau                                      FY 2010 Performance and Accountability Report i
     ECONOMICS
  AND STATISTICS
 ADMINISTRATION

Economics and Statistics
Administration
Rebecca M. Blank,
Under Secretary for Economic Affairs




U.S. CENSUS BUREAU
Robert M. Groves,
Director
Thomas L. Mesenbourg,
Deputy Director and Chief Operating Officer
Ted A. Johnson,
Associate Director for Administration and
Chief Financial Officer
Joan P. Simms,
Chief, Finance Division
   Table of Contents          Statement from the Director .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 	                                  1

                              Management’s Discussion and Analysis section
                              U.S. Census Bureau Mission and Organization  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                    	        6
                              FY 2010 Performance and Financial Highlights .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                    	        7
                              The Census Bureau’s Process for Strategic Planning and
                                Performance Reporting .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                          	    9
   This report can be found
                              Most Important Results  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                      	       11	
­online at <www.census.gov    Analysis of Financial Results  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                           	       12	
    /aboutus/pdf/USCensus     Management Controls  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                      	       15	
  BureauFY2010_PAR.pdf>.      Federal Managers’ Financial Integrity Act (FMFIA) of 1982  .  .  .  .  .  .  .  .  .  .  .  .                                                                 	       16	
                              Federal Financial Management Improvement Act (FFMIA) of 1996  . .  .  .  .  .  .                                                                              	       18
                              Debt Management  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                 	       18
                              Payment Practices  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .               	       19
                              Limitations of the Financial Statements . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                        	       19
                              GAO High Risk Issues/2010 Census .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                        	       20
                              American Recovery and Reinvestment Act (Recovery Act) . .  .  .  .  .  .  .  .  .  .  .  .                                                                    	       21

                              Performance Section
                              Introduction to the Performance Section .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 	                                                27
                              Strategic Goal 1: Provide benchmark measures of the U.S. population,
                                economy, and governments  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 	                                    28
                              Strategic Goal 2: Provide current measures of the U.S. population,
                                economy, and governments  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 	                                    30

                              Financial Section
                              Message from the Chief Financial Officer  . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                 .    .    .    .    .    .   	       35
                              Principal Financial Statements  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                  .    .    .    .    .    .   	       36	
                               Consolidated Balance Sheet  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                  .    .    .    .    .    .   	       36	
                               Consolidated Statement of Net Cost  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                               .    .    .    .    .    .   	       37	
                               Consolidated Statement of Changes in Net Position  .  .  .  .  .  .  .  .  .                                                    .    .    .    .    .    .   	       38	
                               Combined Statement of Budgetary Resources  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                             .    .    .    .    .    .   	       39
                              Notes to the Financial Statements  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                        .    .    .    .    .    .   	       41
                              	 Note 1. Summary of Significant Accounting Policies .  .  .  .  .  .  .  .                                                      .    .    .    .    .    .   	       41
                              	 Note 2. Fund Balance With Treasury  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                 .    .    .    .    .    .   	       47
                              	 Note 3. Accounts Receivable, Net  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                .    .    .    .    .    .   	       47
                              	 Note 4. Operating Materials and Supplies .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                        .    .    .    .    .    .   	       48
                              	 Note 5. General Property, Plant and Equipment, Net .  .  .  .  .  .  .  .                                                      .    .    .    .    .    .   	       48
                              	 Note 6. Liabilities Not Covered by Budgetary Resources .  .  .  .  .                                                           .    .    .    .    .    .   	       49
                              	 Note 7. Other Liabilities  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .               .    .    .    .    .    .   	       50
                              	 Note 8. Leases  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .     .    .    .    .    .    .   	       51
                              	 Note 9. Commitments and Contingencies .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                           .    .    .    .    .    .   	       52
                              	 Note 10. Intragovernmental Cost and Exchange Revenue .  .  .  .                                                                .    .    .    .    .    .   	       53
                              	 Note 11. Statement of Net Cost by Major Programs  .  .  .  .  .  .  .  .                                                       .    .    .    .    .    .   	       54
                              	 Note 12. Stewardship PP&E .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                      .    .    .    .    .    .   	       55
                              	 Note 13. Apportionment Categories of Obligations Incurred .  .                                                                 .    .    .    .    .    .   	       55	
                              	 Note 14. Reconciliation of Net Cost of Operations
                                            (Proprietary) to Budget .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                        .  .  .  .  .  . 	                   56




    U.S. Census Bureau                                                                      FY 2010 Performance and Accountability Report iii
Required Supplementary Information (Unaudited) . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 	                                                                                 57
   Schedule of Budgetary Resources by Major Account . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 	                                                                                        58
Independent Auditors’ Report  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 	                                                       63

APPENDIXES 	
Appendix A: Performance and Resource Tables  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                          .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 	                                       71
Appendix B: Definition of Performance Measures and Validation
  and Verification Information .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 	                                       75
Appendix C: Improper Payments Information Act (IPIA)
  Reporting Details .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .    .    .    .    .    .    .    .    .    .    .    .    .    .    .    .    .   	       78
Appendix D: Management Challenges . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                              .    .    .    .    .    .    .    .    .    .    .    .    .    .    .    .   	       82
Appendix E: Stakeholders and Crosscutting Programs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                  .    .    .    .    .    .    .    .    .    .    .    .    .    .    .    .   	       89
Appendix F: Summary of Financial Statement Audit and Management Assurance .  .                                                                                        .    .    .    .    .    .    .    .    .    .    .    .    .    .    .    .   	       90
Appendix G: List of Key Acronyms .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                        .    .    .    .    .    .    .    .    .    .    .    .    .    .    .    .   	       91




iv FY 2010 Performance and Accountability Report	                                                                                                                                                                                               U.S. Census Bureau
                                                                                      STATEMENT FROM THE DIRECTOR




                                STATEMENT FROM THE DIRECTOR
                                I am pleased to submit the U.S. Census Bureau FY 2010 Performance and
                                Accountability Report (PAR). The report describes the Census Bureau’s programmatic
                                and financial performance and includes its financial statements for FY 2010.
                                The data and details in this report provide an account of the Census Bureau’s
                                accomplishments in providing benchmark and current measures of the U.S.
                                population, economy, and governments. Through performance toward these goals,
                                the Census Bureau, which falls under the Economics and Statistics Administration,
                                also supports the goal of our parent agency, the U.S. Department of Commerce,
                                to maximize U.S. competitiveness and enable economic growth for American
                                industries, workers, and consumers.

Benchmark Measures of the Population, Economy, and Governments

Major 2010 Census Operations Are Nearing Completion
The Census Bureau had a successful count that came in on time and under budget, resulting in more than $1.7
billion in operational savings. A large part of the surplus was due to the smaller workload, which was a result of the
74 percent final mail participation rate that equaled the Census 2000 rate and exceeded our expectations. Further
savings resulted from additional operations that finished early and were implemented more efficiently than planned,
and from not needing to use contingency funds. We believe this participation rate was due in part to the hard work
of over 250,000 census partners who helped their communities understand the importance of participating in the
census, and our advertising campaign, which focused on hard-to-count populations.

Major operations for the 2010 Decennial Census are almost complete. We completed the opening and staffing of
344 local census offices (in addition to 150 opened in FY 2009) that we are using to manage operations. We hired
and trained more than 1 million temporary field workers across a multitude of operations. We recruited and tested
close to 4 million applicants, exceeding our well publicized goal of 3.8 million recruits. Major data collection
operations were completed during FY 2010, including Mailout/Mailback enumeration in which we mailed out forms
to more than 122 million households, Update/Leave in which we hand-delivered questionnaires to more than 9.5
million households, Update/Enumerate in which we attempted interviews at an additional 1.4 million households,
Group Quarters Enumeration, Military Enumeration, Service-Based Enumeration, Shipboard Vessel Enumeration, and
Enumeration at Transitory locations. We also completed the largest operation associated with the 2010 Decennial
Census, Nonresponse Follow-up, in which we visited 47 million households. The operation was completed ahead of
schedule and under budget, and our enumerators achieved a higher productivity rate than expected.

Other major operations completed in FY 2010 in support of enumeration included Group Quarters Validation,
Group Quarters Advance Visit, Telephone Questionnaire Assistance, Be Counted/Questionnaire Assistance Centers,
Questionnaire Check-In and Data Capture of more than 150 million questionnaires, Field Verification, Vacant Delete
Check, and Coverage Follow-up.

The Census Bureau also oversaw a major advertising campaign. The 2010 Census Integrated Communications
Campaign contract totals over $300 million, including over $107.5 million in American Recovery and Reinvestment
Act funding. The advertising campaign was multi-targeted, multi-media, multi-lingual, and research-based. It
featured advertising that was seen nationwide, as well as local advertising targeted at traditionally hard-to-count
populations. It also included a road tour aimed at increasing awareness of the census and a Census in Schools
program.

These efforts were coupled with a partnership program heavily focused on regional efforts to spread the word that
participation in the census is crucial to the functioning of our democracy and the fair and equitable allocation of
federal funds. More than 3,000 partnership staff were on the ground across the nation working to support census
outreach and promotion efforts with partners such as Complete Count Committees, religious organizations, schools,
local and tribal governments, and various community-based organizations.



U.S. Census Bureau   	                                               FY 2010 Performance and Accountability Report 1
STATEMENT FROM THE DIRECTOR


The Economic Census and Census of Governments Release Benchmark Economic Data
Every 5 years, the economic census profiles the U.S. economy from the national to the local level. The economic
census covers 84 percent of the gross domestic product (GDP). Data from the economic census help build the
foundation for the GDP and other indicators of economic performance. In FY 2010, several major data sets from
the 2007 Economic Census were released, including the Industry Series reports, which present preliminary national
industry totals, and the Geographic Area Series reports, presenting industry totals by nation, state, counties, places
and metropolitan areas.

Also every 5 years, the census of governments provides comprehensive and uniformly classified data on the
organization and economic activities of state and local governments. This complex and ever-changing state- and
local-government universe is a major economic force, totaling about 12 percent of GDP and nearly 14 percent of
the U.S. workforce. In FY 2010, we released data from the finance component of the census of governments.



Current Data on the Economy and Population

New Data on the Services Industry Are Collected for the First Time
The services sector constitutes 55 percent of GDP but has not been well measured in the past. In response, in FY
2010, we have continued a multi-year expansion of our services sector statistics programs that will close that gap.
The Improved Measurement of Services initiative will expand the Quarterly Services Survey and the Service Annual
Survey so that they fully cover this vital sector of our economy by the end of FY 2011. Already, in FY 2010, we
more than doubled the coverage of the Quarterly Services Survey—from 17 to 36 percent. Also in FY 2010, the
Quarterly Financial Report program expanded coverage to include the information, and professional, scientific, and
technical services (excluding legal services) sectors. This is the first expansion to the program in nearly 25 years.
These efforts will provide the Bureau of Economic Analysis with timely new source data needed to improve the
national economic accounts.

Survey of Income and Program Participation and Improvement Work Continued
The Census Bureau continued the 2008 panel of the Survey of Income and Program Participation (SIPP), which
began in September 2008, with a full sample size of 45,000 households. In addition, a multi-year effort to improve
the survey continued. These efforts will yield updated computer programming, improved content, development
and implementation of an event history calendar to facilitate enhanced accuracy in responses, and security
enhancements to laptops used in the field.

Program Data, Management, and Financial Performance
The financial data and program performance results described in this report enable us to administer our programs,
gauge their success, and make adjustments necessary to improve program quality and service to policymakers,
businesses, and the American public.

In response to the Reports Consolidation Act of 2000, we are reporting that the financial and performance data
presented are substantially complete and reliable, in accordance with U.S. Office of Management and Budget
(OMB) Circulars No. A-136, Financial Reporting Requirements, and A-11, Preparation, Submission and Execution of
the Budget. Details, including any specific data limitations, are discussed in the body of the report. Our financial
systems are in substantial compliance with the requirements of the Federal Financial Management Improvement
Act of 1996. Our annual financial statements were audited by independent auditors and an unqualified audit
opinion was received. For FY 2010 financial reporting, the independent auditors did not identify any deficiencies
in internal control considered to be material weaknesses over financial reporting. There were no instances of
noncompliance with laws or regulations required to be reported under Government Auditing Standards or OMB
Bulletin No. 07-04 Audit Requirements for Federal Financial Statements.




2 FY 2010 Performance and Accountability Report	                                                        U.S. Census Bureau
                                                                                      STATEMENT FROM THE DIRECTOR


The Census Bureau reviews its performance validation and verification processes to ensure that the performance
data are accurate. The Census Bureau maintains a quarterly monitoring process that reviews performance
measurement data, as well as the measures themselves. This process includes reviewing the data used to
determine the results, reviewing the measures for validity, and then developing recommendations for improving
them.

We must also comply with the management control standards established by the Federal Managers’ Financial
Integrity Act of 1982 (FMFIA) and OMB Circulars No. A-123, Management’s Responsibility for Internal Control, and
A-127, Financial Management Systems. Continual evaluation of our operations through a variety of internal and
external studies enables us to determine whether our systems and management controls comply with the FMFIA.
Based on these reviews for the programs, organizations, and functions covered by the FMFIA, the Census Bureau’s
systems of management controls, taken as a whole, provide reasonable assurance that the objectives of the FMFIA
have been achieved.

In Conclusion
I am very proud of the organization’s accomplishments during this fiscal year, and again, it is my pleasure to
submit the FY 2010 Performance and Accountability Report.




				


				
				
				                                                      Robert M. Groves
				                                                      Director
				                                                      U.S. Census Bureau
				                                                      November 9, 2010




U.S. Census Bureau   	                                               FY 2010 Performance and Accountability Report 3
Management’s Discussion
and Analysis Section




                                                               President Barack Obama fills out his 2010 Census form in
                                                               the Oval Office, March 29, 2010.

                                                               Photo Credit: Official White House Photo by Pete Souza




The 2010 Census was one of the shortest census forms in U.S. history. It had only
10 questions and generally took only 10 minutes to complete.
                                                                                            U.S. Census Bureau Mission and Organization
                                                   The Census Bureau serves as the leading source of quality data about the nation’s people and economy. We honor privacy,
                                                   protect confidentiality, share our expertise globally, and conduct our work openly. We are guided on this mission by our
                                                   strong and capable workforce, our readiness to innovate, and our abiding commitment to our customers.



                                                                                                                            U.S. Department of Commerce
                                                                                                                                 Bureau of the Census

                                                                                                                                              DIRECTOR
                                                                                                                                                                                    Assistant Director
                                                                                                    Policy Office                                                                   for Marketing and
                                                                                                                                                                                    Customer Liaison
                                                                                                                                         DEPUTY DIRECTOR




                                                                               Associate Director                                                     Associate Director        Associate Director       Associate Director
                                                    Associate Director for                            Associate Director       Associate Director             for                       for                                      Associate Director
                                                                                for Information                                                                                                                 for
                                                     Administration and                                      for                       for           Economic Programs          Decennial Census                                for Methodology and
                                                                             Technology and Chief                                                                                                          Demographic
                                                   Chief Financial Officer                            Field Operations         Communications                                                                                        Standards
                                                                             Information Officer                                                                                                            Programs




6 FY 2010 Performance and Accountability Report	
                                                                                                                                                                               Assistant Director
                                                                                                                                                                                                                                                      management’s discussion and analysis section




                                                                                                                                                     Assistant Director for
                                                                                                                                                                                  for ACS and
                                                                                                                                                     Economic Programs
                                                                                                                                                                               Decennial Census
                                                            Comptroller             Computer              Technologies                                                                                                                Computer
                                                                                                                                   Congressional                                                             Demographic
                                                                                     Services             Management                                                                                                               Assisted Survey
                                                                                                                                   Affairs Office            Economic                                      Surveys Division
                                                                                     Division                Office                                                                                                                Research Office
                                                                                                                                                           Planning and             Decennial
                                                                                                                                                           Coordination            Management
                                                                                                                                                             Division               Division
                                                         Budget Division                                                                                                                                     Housing and
                                                                                     Tele-                   National                  Public                                                                                          Statistical
                                                                                 communications             Processing              Information                                                               Household                Research
                                                                                                                                                              Economic
                                                                                    Office                    Center                   Office                                                                  Economic                Division
                                                                                                                                                         Statistical Methods
                                                                                                                                                                                     American             Statistics Division
                                                                                                                                                         and Programming
                                                                                                                                                              Division              Community
                                                        Finance Division                                                                                                           Survey Office
                                                                                   Information                                                                                                                                        Planning,
                                                                                                                                                                                                             Demographic
                                                                                 Systems Support                                   Census 2010                                                                                        Research,
                                                                                                          Field Division                                     Center for                                   Statistical Methods
                                                                                and Review Office                                 Publicity Office                                                                                  and Evaluation
                                                                                                                                                             Economic                                          Division
                                                                                                                                                                                                                                      Division
                                                                                                                                                              Studies               Decennial
                                                       Human Resources                                                                                                               Statistical
                                                          Division                                                                                                               Studies Division
                                                                                 Systems Support             Regional
                                                                                                                                                             Company                                          Population
                                                                                     Division                 Offices:
                                                                                                                                                             Statistics                                        Division
                                                                                                           Boston, MA                                        Division
                                                         Administrative                                                                                                           Assistant Director
                                                                                                          New York, NY
                                                             and                                                                                                                    for Decennial
                                                                                                         Philadelphia, PA
                                                          Management                                                                                                                 Information
                                                                                                           Detroit, MI
                                                       Systems Division                                                                                    Service Sector          Technology and
                                                                                                           Chicago, IL
                                                                                                                                                             Statistics          Geographic Systems
                                                                                                         Kansas City, KS
                                                                                                           Seattle, WA                                       Division
                                                       Administrative and                                 Charlotte, NC
                                                       Customer Services                                   Atlanta, GA                                                          Decennial Systems
                                                           Division                                         Dallas, TX                                                            and Contracts
                                                                                                           Denver, CO                                      Foreign Trade          Management
                                                                                                         Los Angeles, CA                                     Division                Office


                                                          Acquisition
                                                           Division
                                                                                                                                                                                    Geography
                                                                                                                                                           Governments
                                                                                                                                                                                     Division
                                                                                                                                                             Division

                                                       Equal Employment
                                                         Opportunity
                                                             Office                                                                                       Manufacturing
                                                                                                                                                         and Construction
                                                                                                                                                            Division




  U.S. Census Bureau
                                                                                                   management’s discussion and analysis section


FY 2010 PERFORMANCE AND FINANCIAL HIGHLIGHTS
Overall performance results for the Census Bureau show that four of the five performance targets were met. (See
Appendix A for a listing of the targets.) Below are obligations and full-time equivalents by strategic goal. Achieving
results in each of the strategic goals furthers the Census Bureau’s mission. This summary provides a snapshot of
the targeted achievements. Discussions and highlights of the results can be found in the “Performance Section.”

                                                                                                              Percentage
(Dollars in Millions)                                                                                            Change                     FY 2010          FY 20091
For the Years Ended
September 30, 2010 and 2009
Obligations by Strategic Goal:
Strategic Goal 1: Provide Benchmark Measures of the U.S. Population,
Economy, and Governments                                                                                              98.5%                 $5,704.9             $2,873.8

Strategic Goal 2: Provide Current Measures of the U.S. Population,
Economy, and Governments                                                                                            2.4%                      733.1             715.9
Total Obligations                                                                                                 79.3%                    $6,437.0          $3,589.7

Full-Time Equivalents (FTEs) by Strategic Goal:
Strategic Goal 1: Provide Benchmark Measures of the U.S. Population,
Economy, and Governments                                                                                          336.9%                      87, 418             20,007

Strategic Goal 2: Provide Current Measures of the U.S. Population,
Economy, and Governments                                                                                           -0.7%                       6,187               6,231
Total FTEs                                                                                                       256.8%                       93,605              26,238



The FY 2009 Obligations have been restated to include Recovery Act funding.
1




                     PERFORMANCE RESULTS                                      HISTORICAL PERFORMANCE RESULTS

                         Number of Targets
                                                                                                   6
                                                                               Number of Targets




                                              Exceeded Target                                      5
                                                                                                   4
                 1           1                Met Target
                                                                                                   3
                                              Did Not Meet                                         2
                                              Target
                                                                                                   1
                         3                                                                         0
                                                                                                        2005     2006     2007     2008        2009     2010
                                                                               Exceeded                                                                      1
                                                                               Met                        5       5           5      3          4            3
                                                                               Not Met                                               2          1            1

                                                                                                       * See Appendix A for detailed Performance Outcomes.




    Note: Obligations differ from amounts shown in the Statement of Budgetary Resources because they do not include Expired and the Working
    Capital Funds.




U.S. Census Bureau   	                                                                                 FY 2010 Performance and Accountability Report 7
management’s discussion and analysis section


Assets
Assets represent amounts owned or managed by the Census Bureau that can be used to accomplish its mission.
At September 30, 2010, the Census Bureau had $3.3 billion in assets, representing an $848 million increase from
FY 2009 assets of $2.5 billion.

The increase is primarily the result of Fund Balance with Treasury increasing by $836.9 million, which primarily
resulted from proceeds of $1 billion from the American Recovery and Reinvestment Act (ARRA) received for the
2010 Decennial Census. Fund Balance with Treasury (FBwT) comprises 93 percent, $3.1 billion of the total assets.

Liabilities
Liabilities are the amounts owed to the public or other federal agencies for goods and services provided but not
yet paid, including wages and future benefits and other liabilities. The Census Bureau had $541.9 million in total
liabilities as of September 30, 2010. This is an increase of $116.4 million over the previous year’s total liabilities
of $425.4 million and is primarily the result of increases in Actuarial FECA Liability, Liability for Advances and
Prepayments, and Accounts Payable. The liabilities comprise Accrued and Actuarial FECA Liability (21 percent),
Accrued Payroll and Annual Leave (17 percent), Accounts Payable (29 percent), and Unearned Revenue (26 percent).




                      FY 2010 Assets                                        FY 2010 Liabilities


              5% 2%                                                                             Accounts Payable
                                       FBwT                                2%
                                                                                                Unearned Revenue
                                       General Property,
                                       Plant & Equipment,                       29%             Other
                                       Net
                                                                    17%
                                                                                                Accrued and
                                       Other
                                                                                  26%           Actuarial FECA
                                                                                                Liability
                   93%
                                                                          21%                   Accrued Payroll
                                                                                 5%
                                                                                                and Annual Leave

                                                                                                Contingent
                                                                                                Liabilities




8 FY 2010 Performance and Accountability Report	                                                        U.S. Census Bureau
                                                                   management’s discussion and analysis section


Statement of Net Cost
The Net Cost of Operations for FY 2010 is an accumulation of two strategic goals that focus on informing the
public by means of statistical analysis of the economy and sampling of the population. Strategic Goal 1 is primarily
concerned with the 2010 Decennial Census which includes a gross cost of $6.5 billion. The American Recovery and
Reinvestment Act (ARRA) included a gross cost of $923.3 million related to job creation for the decennial census.
Strategic Goal 2 includes a gross cost of $357.2 million and incorporates the cost of Demographic Programs,
Economic Programs, and Reimbursable and Other Programs.




            FY 2010 Net Cost of Operations                       FY 2010 Net Cost of Operations
            Breakdown by Strategic Goal 1                        Breakdown by Strategic Goal 2

                                         Decennial                                               Demographic
                                         Censuses                                                Programs
                         15%                                             11%
                                         Recovery Act                            22%             Economic
                                         Programs                                                Programs

                                                                                                 Reimbursable
                                                                                                 and Other
                               85%                                         67%                   Programs




THE CENSUS BUREAU’S PROCESS FOR STRATEGIC PLANNING
AND PERFORMANCE REPORTING
The Census Bureau’s Strategic Plan provides a comprehensive vision to meet constitutional and legislative
mandates by:

•• Implementing a reengineered 2010 Census program that is cost-effective, provides more timely data, improves
   coverage accuracy, and reduces operational risk.

•• Supporting the economic and political foundations of the United States by producing benchmark measures of
   the economy and population for the administration and equitable funding of federal, state, and local programs.

•• Supporting innovation, promoting data use, minimizing respondent burden, respecting individual privacy, and
   protecting the confidentiality of respondents’ information.

•• Meeting the needs of policymakers, businesses and nonprofit organizations, and the public for current
   measures of the U.S. population, economy, and governments.

The plan puts forth broad objectives, targets specific outcomes, and identifies key challenges. The Census Bureau
issued its strategic plan for FY 2007 through FY 2012 in June 2007. It can be found at <www.census.gov/main
/www/strategicplan/strategicplan.pdf>.

The Census Bureau’s goal structure has three levels. Strategic goals describe outcomes that emerge from the
Census Bureau’s mission. Each of these goals in turn has outcome goals or objectives that define the results that
the Census Bureau aims to achieve. These are long-term objectives that often involve more than one program.
Each has associated indicators and targets to measure the Census Bureau’s impact on a continuous basis.


U.S. Census Bureau   	                                               FY 2010 Performance and Accountability Report 9
management’s discussion and analysis section


The Strategic Plan and Annual Performance Plan (APP) provide the specific performance goals and measures
that align with the Census Bureau’s strategic goals and objectives. These performance goals are linked with
the resource requirements for the past, current, and upcoming fiscal years. These plans are integrated with the
President’s budget submission to Congress, at the bureau level. Census Bureau FY 2011 APPs can be found at
<www.osec.doc.gov/bmi/budget/11CJ/Census%2011%20portrait%20final.pdf>.

Performance Management Process
An overall performance management process ensures that performance feedback, accountability, results,
corrective action, and planning occur. This FY 2010 Performance and Accountability Report (PAR) provides a public
accounting of the Census Bureau’s FY 2010 performance results and completes the performance management
process. Appendix A of this PAR provides details of the Census Bureau’s performance and explanatory materials
supporting the program results.

How the Census Bureau Selects Its Performance Outcomes and Measures
Performance outcomes articulated in the introductory material for each goal in the Strategic Plan and APP are
aimed at achieving one or more strategic outcomes and convey a sense of how the Census Bureau creates value
for the U.S. public. Performance measures depict tangible progress by Census Bureau program activities toward
these goals. When considered along with external factors and information provided in program evaluations, these
measurements give valuable insight into the performance of an agency’s programs and are meant to broadly
illustrate how the agency adds value to the U.S. economy. More in-depth performance results for FY 2010 and prior
years are available in Appendix A.

Performance Validation and Verification
The Census Bureau uses a broad range of performance outcomes and measures to make reporting useful and
reliable. It is imperative that performance measures be backed by accurate and reliable data; valid data are
important to support management decisions on a day-to-day basis. The data and the means to validate and
verify the measures are also diverse. Validation and verification tables appear in the APP in the FY 2011 budget
submission. These tables identify each measure and the following information: (1) data source, (2) frequency, (3)
data storage, (4) internal control procedures, (5) data limitations, and (6) any actions to be taken. This information
is available at <www.osec.doc.gov/bmi/budget/11CJ/Census%2011%20portrait%20final.pdf>. Each quarter
the Census Bureau reviews its performance validation and verification processes to ensure that the reported
performance data are accurate.

Performance Controls and Procedures
Performance Data: The Census Bureau’s performance measurement data are collected from the program areas,
each with systems to manage their data validation and verification processes. Some of these are automated
systems and others are manual processes.

Financial Data: The Census Bureau has a high degree of confidence in its financial data. Internal testing and
other financial management controls maintain the integrity of these data elements. During the FY 2010 Financial
Statement audit, tests and review of the core accounting system and internal controls were conducted by
independent auditors in compliance with the Chief Financial Officers Act of 1990. Further, the Census Bureau
conducted its assessment of the effectiveness of internal control over financial reporting, which includes
safeguarding of assets and compliance with applicable laws and regulations, in accordance with the requirements
of Appendix A of Office of Management and Budget Circular No. A-123. Based on the results of this evaluation,
the Census Bureau provided reasonable assurance that its internal control over financial reporting was operating
effectively.

Performance Reviews: The Census Bureau also conducts quarterly performance reviews. During these reviews,
the Census Bureau’s Director reports to the Commerce Department’s Deputy Secretary on the current status of the
Census Bureau performance and its progress toward Government Performance and Results Act measures that will
appear in this report.



10 FY 2010 Performance and Accountability Report	                                                        U.S. Census Bureau
                                                                    management’s discussion and analysis section


MOST IMPORTANT RESULTS
In FY 2010, the Census Bureau continued to increase and improve the quality and availability of economic and
demographic information used as a basis for important decisions made by business leaders, policymakers, and
the U.S. public. The Census Bureau had a successful count for the 2010 Decennial Census that came in on time
and under budget, resulting in more than $1.7 billion in operational savings. A large part of the surplus was due
to a smaller workload being needed, which was a result of the 74 percent final mail participation rate that equaled
Census 2000 and exceeded our expectations. Further savings resulted from additional operations that finished
early and were implemented more efficiently than planned, as well as from not needing to use contingency funds.

In support of the 2010 Decennial Census, the Census Bureau opened 344 local census offices (in addition to the
150 opened in FY 2009) and deployed equipment to these offices. Many field operations for the decennial census
were conducted, including Mailout/Mailback, Military Enumeration, Remote Alaska, Follow-up, and operations in
the Island Areas, to name a few. Numerous other operations were conducted to support the data collection and
data capture operations. At their peak, 2010 Census operations employed approximately 600,000 temporary field
workers. All told, more than one million temporary field employees worked on the 2010 Census.

During the Nonresponse Follow-up operation, the Census Bureau encountered some challenges with the Paper-
Based Operations Control System (PBOCS), which was used to track the shipping and processing of questionnaires
from the local census offices to the Paper Data Capture Centers. However, these challenges were overcome. PBOCS
was used successfully to assign and manage many of the field operations, and the Census Bureau successfully
implemented an alternate solution for shipping the questionnaires. For further information concerning the
challenges, see Appendix D.

The Census Bureau also completed data collection for the 2007 Economic Census and started delivery of some
1,600 data releases through the Web-based American FactFinder dissemination system. The 2007 Economic Census
Industry Series was released in November 2009, and the Geographic Area Series was released in August 2010. The
flow of 2007 Economic Census data products will continue through FY 2011.

In response to needs to fill a longstanding data gap, the Quarterly Services Survey (QSS) and Service Annual Survey
(SAS) are in the process of providing quarterly and annual data on all parts of the service sector of the economy.
Moreover, the original timeline for the publication of quarterly data on several sectors, including banking and
financial industries, was expedited in response to the critical demand for these data by policymakers.

In January 2010, the Census Bureau began releasing the U.S. State Import Data Series. These data will provide
states and businesses an opportunity to track and analyze specific commodities and industries by ultimate
destination. With this additional information, better economic forecasting and improved monitoring of goods
imported into the United States will be possible.

In response to needs of the national accounts, the annual County Business Patterns (CBP) program is developing
a new product that will summarize data for North American Industry Classification System (NAICS) industries by
legal form of organization. The Census Bureau will release data for the calendar year 2007 reference period to the
Bureau of Economic Analysis as a special tabulation; for 2008 and later reference periods, the product will become
a regular part of the CBP product line, which is distributed through the American FactFinder.

To improve the effectiveness and efficiency of data delivery of economic-indicators, and allow users outside of the
Census Bureau (e.g., Wall Street industry analysts) to be able to easily access the data pertinent to their research
and to do various modeling, trend analyses, etc., the Census Bureau is developing a database that interfaces
with a user-friendly Web application for data retrieval for the economic indicators. This new Web application was
introduced in FY 2010 and development will continue throughout FY 2011 as additional indicators and other
current programs data are included.




U.S. Census Bureau   	                                               FY 2010 Performance and Accountability Report 11
management’s discussion and analysis section


ANALYSIS OF FINANCIAL RESULTS

Composition of Assets
The Census Bureau’s assets are comprised of Fund Balance with Treasury, Accounts Receivable, Advances and
Prepayments, Operating Materials and Supplies, and General Property Plant and Equipment. Fund Balance with
Treasury, which represents 93 percent of total assets, consists of Unobligated Balance Available of $2.2 billion,
Unobligated Unavailable of $14 million, Obligated Balance Not Yet Disbursed of $819.5 million, and Non-Budgetary
Assets of $90 thousand.

During FY 2010, the Census Bureau’s assets have increased roughly 35 percent, resulting primarily from the
increase in Fund Balance with Treasury, General Property Plant and Equipment, and Advances and Prepayments.
Decreases in assets are attributed to reductions in Accounts Receivable and in Operating Materials and Supplies
and are due to less trading activity between us and our partners and a $24 million decrease in Operating Materials
and Supplies which primarily consisted of Decennial Census kits. These kits involve Administrative Kits, Recruiting
Kits, Office Forms, Address Canvassing Kits, and Nonresponse Followup (NRFU) forms, which were provided to all
Decennial Census employees hired during FY 2010.

Fund Balance with Treasury experienced a 36.71 percent net increase, resulting from the Census Bureau retaining
more than $1.7 billion in funds to be returned to Treasury as a result of 2010 Decennial cost savings, and a $918
million decrease as a result of spending more funds on staffing, field operations, data collection, printing system
support and other miscellaneous activities related to the 2009 Reinvestment and Recovery Act. General Property
Plant and Equipment increased 27.2 percent due to the acquisition of new equipment and an increase in Internal
Use Software (IUS) amortization. During FY 2010, the Census Bureau purchased IT servers, network storage,
printers, personal computers, and computer hardware totaling $43 million. The reclassification of IUS from work
in progress to completed also increased the amortization associated with IUS by $5.6 million. The increase in
equipment and IUS amortization is directly related to the performance and completion of the 2010 Decennial
Census. The Census Bureau’s Advances and Prepayments experienced a net increase of 123 percent due largely in
part to 2010 Decennial Census postage costs.




                Composition of Assets
                (Percentage of Change)                                                     Advances and
                                                                                           Prepayments
                          123%
         150%
                                                                                           FBwT

         100%                                                                              General Property,
                                         37%                                               Plant & Equipment,
          50%                                                                              Net
                                               27%

           0%                                                                              Accounts
                                                          -4%                              Receivable
         -50%
                                                                                           Operating
                                                                                           Materials and
        -100%
                                                                     -100%                 Supplies




12 FY 2010 Performance and Accountability Report	                                                          U.S. Census Bureau
                                                                   management’s discussion and analysis section


Composition of Liabilities
The Census Bureau’s total liabilities increased by $116.4 million in FY 2010 in comparison to FY 2009. Liabilities
amounted to $541.9 million and $425.4 million on September 30, 2010 and 2009, respectively. The increase of
$55.9 million is related to Unearned Revenue. The Census Bureau’s Unearned Revenue balance increased as a result
of advances being received from various federal agencies to conduct surveys and interviews.

The Census Bureau’s Accrued and Actuarial FECA Liability also increased in FY 2010 by $33 million due to the
hiring of more employees to perform the 2010 Decennial Census. Accounts Payable also increased in FY 2010
by $29.1 million as a result of recording estimated accruals with public vendors and federal agencies as well as
significant decreases in billing from various federal agencies relating to the 2010 Decennial Census.

The Accrued Payroll and Annual Leave balance decreased by $26.2 million as a result of accruing more days for
payroll and leave in FY 2009 in comparison to FY 2010. Other liabilities such as Accrued FECA and Employer
Contributions and Payroll Taxes increased by $17.2 million in FY 2010 due to an increase in hiring for the 2010
Decennial Census. More FECA claims are filed and contributions and taxes are paid as employees increase. The
Census Bureau’s Contingent Liabilities rose in FY 2010 by $7.4 million as a result of Department of Commerce
reporting policy changes. Contingent Liabilities are now recorded on a worst case scenario basis when a payment
range cannot be anticipated.




                     Composition of Liabilities
                     (Percentage of Change)                                              Contingent
                                                                                         Liabilities
                              186%
            200%
                                                                                         Other
                                        139%
            150%
                                                                                         Unearned Revenue

            100%                                                                         Accrued and Actuarial
                                               65%                                       FECA Liability
                                                     42%
             50%
                                                            23%
                                                                                         Accounts Payable
               0%
                                                                                         Accrued Payroll
                                                                      -22%               and Annual Leave
             -50%




U.S. Census Bureau   	                                              FY 2010 Performance and Accountability Report 13
management’s discussion and analysis section


Net Cost of Operations by Strategic Goal
Net Cost of Operations reported a $3.8 billion increase in costs associated with the Periodic/Benchmark programs
and Current programs run by the Census Bureau. The Decennial/Periodic Census programs showed an increase of
$2.9 billion while the Recovery Act increased by $896 million and the Demographic and Other Programs decreased
by $11 million. The Census Bureau carries out the Decennial Census, Periodic Censuses, and Demographic and
other surveys, and prepares and releases targeted data products for economic and other programs.




             FY 2010 Net Cost of Operations                       FY 2010 Net Cost of Operations
             Breakdown by Strategic Goal 1                        Breakdown by Strategic Goal 2
             (Percentage of Change)                               (Percentage of Change)

                  3264%                                     40%
     3500%
                                          Recovery Act                                        Economic
                                                                       21%                    Programs
     3000%                                Programs          20%

     2500%                                Decennial                                           Demographic
                                                            0%
                                          Censuses                                            Programs
     2000%
                                                           -20%                               Reimbursable
                                                                              -11%
     1500%                                                                                    and Other
                                                           -40%                               Programs
     1000%

                                                           -60%
      500%
                              115%                                                   -61%
       0%                                                  -80%




14 FY 2010 Performance and Accountability Report	                                                  U.S. Census Bureau
                                                                   management’s discussion and analysis section


MANAGEMENT CONTROLS
The Census Bureau’s management team is responsible for establishing and maintaining effective internal control
and financial management systems that meet the objectives of the Federal Managers’ Financial Integrity Act. The
Census Bureau conducted its assessment of internal controls over operations and compliance with applicable
laws and regulations in accordance with the Office of Management and Budget (OMB) Circular No. A-I23,
Management’s Responsibility for Internal Control, and the Department of Commerce’s (DOC) FY 2010 guidance.
Based on the results of this evaluation, the Census Bureau can provide reasonable assurance its internal controls,
as of September 30, 2010, were operating effectively, and no material weaknesses were found in their design or
operation.

The Census Bureau conducted its assessment of the effectiveness of its internal controls over financial reporting,
which includes a review of controls for safeguarding assets and compliance with applicable laws and regulations,
in accordance with the requirements of Appendix A of OMB Circular A-123. Based on the results of this evaluation,
the Census Bureau can provide reasonable assurance its internal controls over financial reporting as of June 30,
2010, were operating effectively, and no material weaknesses were found in their design or operation.
No material weaknesses related to internal control over financial reporting were identified between July 1
and September 30, 2010.

In FY 2010, the Census Bureau took a number of actions to assess and strengthen internal controls in the area of
information technology security and operations in support of the DOC’s overall improvement efforts. For instance,
the Census Bureau (1) improved its incidence reporting, (2) performed technology vulnerability assessments,
(3) continued its certification and accreditation of systems, and (4) updated its IT Security Program Policy.

In accordance with OMB Circular A-127, Financial Management Systems, the Census Bureau can provide reasonable
assurance the financial management system on which it relies to carry out its responsibilities conforms to
government-wide requirements. The reasonable assurance is based on compliance with the Financial Systems
Integration Office, U.S. Government Accountability Office (GAO), and U.S. Standard General Ledger requirements.

In response to the presence of the 2010 Decennial Census on the Inspector General’s (IG’s) Semiannual Report to
Congress (March 2009) as one of the Department of Commerce’s major challenges, the IG’s recommendations from
2010 Census: First Quarterly Report to Congress (August 2009), and placement on the Government Accountability
Office’s “high-risk list” in 2008, the Census Bureau has taken a number of actions to act upon the recommendations
and issues raised in these reports. Most notably, the Census Bureau developed a High Risk Improvement Plan, and
complementary lines of action, to include (1) developing an integrated and comprehensive plan to control costs
and manage operations; (2) strengthening risk-management activities; (3) strengthening systems testing; and (4)
improving management of the FDCA contract effort.

Finally, as a recipient of American Recovery and Reinvestment Act (ARRA) of 2009 funds, the Census Bureau has
taken a number of actions to make ARRA funds use transparent and accountable to the public and oversight
agencies. For instance, the Census Bureau established the following: (1) a public Web site to report its use and
tracking of ARRA fund activities; (2) a unique fund structure to track obligations and spending of ARRA funds; and
(3) a separate Treasury Account to distinguish ARRA from non-ARRA funds.




			
			
			

			                                              Robert M. Groves
			                                              Director
			                                              U.S. Census Bureau
			                                              November 9, 2010




U.S. Census Bureau   	                                              FY 2010 Performance and Accountability Report 15
management’s discussion and analysis section


Federal Managers’ Financial Integrity Act (FMFIA) of 1982
During FY 2010, the Census Bureau reviewed its management control system in accordance with the requirements
of FMFIA and OMB and DOC guidelines. The objective of the Census Bureau’s management control system is to
provide reasonable assurance:

•• Obligations and costs are in compliance with applicable laws.

•• Assets are safeguarded against waste, loss, and unauthorized use of appropriations.

•• Revenues and expenditures applicable to Census Bureau operations are properly recorded and accounted for,
   permitting accurate accounts, reliable financial reports, and full accountability for assets.

•• Programs are efficiently and effectively carried out in accordance with applicable laws and management policy.

Section 2 of the FMFIA—Internal Management Controls
The Census Bureau can report, on the basis of its annual assessments, that no material weaknesses were identified
in FY 2010 in connection with its internal and administrative controls. The efficiency of the Census Bureau’s
operations is continually evaluated using its internal assessment functions and information obtained from reviews
conducted by the Government Accountability Office (GAO) and the Office of Inspector General (OIG).

2010 Census
In response to the presence of the 2010 Decennial Census on the Inspector General’s Semiannual Report to
Congress (March 2010) as one of the Department of Commerce’s major challenges, the IG’s Recommendations from
2010 Census: Quarterly Report to Congress (December 2009 and May 2010), and continued placement on the U.S.
Government Accountability Office’s (GAO) “high-risk list” in 2010, the Census Bureau has taken a number of actions
to act upon the recommendations and issues raised in these reports and other reviews. Most notably, the Census
Bureau developed a High Risk Improvement Plan, and complementary lines of action, to include: (1) developing an
integrated and comprehensive plan to control costs and manage operations, (2) strengthening risk-management
activities, (3) strengthening systems testing, and (4) improving management of the FDCA contract effort.

In addition, in FY 2010 the Census Bureau continues planning for the 2020 Census. This robust effort includes
strategic planning, formal governance and communication plans, and program management and operational
design options. This early planning will ensure effective control over costs, operations, and risks.

American Recovery and Reinvestment Act (ARRA) of 2009
The Census Bureau was a recipient of ARRA funds in FY 2009 and has taken action to comply with agency
reporting requirements issued by OMB on June 22, 2009 (M-09-21, Updated Recovery Act Guidance). The
Census Bureau has worked with the DOC in making public information on spending (available obligations and
expenditures), announcing significant activities on a weekly basis, configuring data input controls within systems
of records to prevent erroneous or missing data, putting in place controls to validate receipt of transmitted data,
and implementing an ARRA entity-level risk assessment.

Information Technology (IT) Security Controls
The Census Bureau places a high level of importance on providing the most secure IT environment possible to
protect the sensitive information collected and processed under Title 13, U.S. Code, as well as the information
resources critical to the day-to-day operation of the Census Bureau.

Improved Incident Reporting
The Census Bureau continued to improve its incident-reporting response of lost or stolen personally identifiable
information (PII). It developed a strategy to prepare for the expected increase in reported decennial-related
incidents. For example, a Decennial Computer Incident Response Team was created to handle the increased
reporting of PII related to the Decennial.




16 FY 2010 Performance and Accountability Report	                                                      U.S. Census Bureau
                                                                     management’s discussion and analysis section


Performed Technology Vulnerability Assessments
The Information Technology Security Office continued its use of the anytime self-scanning capability for system
administrators using Security Console 4 from Tenable to conduct quarterly vulnerability assessments. The results
of these assessments are tracked to ensure vulnerabilities are addressed with corrective actions.

Certification and Accreditations Improvement Process
The IT Directorate continued to improve the certification and accreditation methodology of all IT systems with the
addition of a new annual continuous monitoring process in July of 2010.

Information Technology Security Office (ITSO) Outreach Program
The IT Directorate, under the direction of the ITSO, continues to improve its certification and accreditation
methodology for all IT systems. The following were established during FY 2010:

•• A new methodology was piloted on the Paper-Based Operation Control System that supports Decennial
   operations.

•• ITSO has continued its outreach to the Census Bureau program areas with training and education in IT security
   roles and responsibilities.

•• ITSO and the Policy Office partnered in FY 2010 to develop a combined IT Security Awareness and Title 13
   training for all Census Bureau employees and contractors.

•• ITSO also held five meetings in the auditorium throughout the year for the information security community
   with IT security topics presented by a variety of guest speakers.

•• ITSO held an Innovative Workshop in March and the annual IT Security Conference and Expo in June that served
   as vehicles to educate Census Bureau employees about the latest in information security subjects.

•• ITSO continues to keep the information security community up-to-date on the latest information security news
   and development via regular broadcasts using the information security community e-mail list.

•• IT security role-based training program credit hours continue to be tracked, with close to 90 percent of the
   required staff completing training.


IT Security Compliance
In FY 2010, a total of thirteen systems were certified and accredited to include many systems that support
Decennial operations.

A major revision to the IT Security Program Policy was developed, vetted, and finalized in FY 2009 in accordance
with the DOC IT Security Program Policy and National Institute of Standards and Technology (NIST) Special
Publication 800-53r2.

The ITSO conducted IT Security reviews for six of the twelve regional offices (ROs) as part of an administrative
review process. The review process was started in 2007 and is ongoing. The IT security portion of the reviews
is focused on RO compliance with a subset of NIST 800-53 security controls and the Census Bureau’s IT Security
Program. The ROs were generally in compliance with the subset of 800-53 controls reviewed. Any deficiencies
identified were discussed with the RO director or staff and addressed. The ROs continue to monitor their
compliance with federal and departmental IT policies and requirements as a result of the reviews.

Information Systems Security Line of Business
In FY 2009, the Census Bureau implemented a new DOC-mandated tool, Cyber Security Assessment Methodology
(CSAM), to manage and track certification and accreditation artifacts. All system security weaknesses and remedial
actions are tracked and managed using CSAM; quarterly and annual Federal Information Security Management Act
reports to DOC come through CSAM. The Census Bureau developed a pilot of CSAM to evaluate the full capabilities
of CSAM and continues to participate on interagency project teams to consider enhancements and uses of CSAM.


U.S. Census Bureau   	                                               FY 2010 Performance and Accountability Report 17
management’s discussion and analysis section


Other Internal Control Activities
The Census Bureau participated in the DOC’s comprehensive effort to enhance management of internal controls
under OMB Circular No. A-123 in FY 2010 and continues to participate in the DOC’s Senior Management Council
and Senior Assessment Team annual agenda of internal control reviews.

Fiscal Year 2010 Testing

Process                                                                       Issues Found to Date
Financial Reporting                                                           None
Acquisition                                                                   None
Leases                                                                        None
Software                                                                      None
Depreciation                                                                  None
Disposal                                                                      None
Invoice Processing for Decennial Response Integration System (DRIS)           None
Invoice Processing for Field Data Collection and Analysis (FDCA)              None
Invoice Processing for Communication Contract                                 None
Decennial Applicant Personnel and Payroll System (DAPPS)                      None
Personal Property Audit                                                       None

Section 4 of the FMFIA—Internal Controls Over Financial Management Systems
In accordance with OMB Circular No. A-127, Financial Management Systems, the Census Bureau can provide
reasonable assurance that the financial management system on which it relies to carry out its responsibilities
conforms to government-wide requirements. The reasonable assurance is based on compliance with Financial
Systems Integration Office (FSIO), GAO, and U.S. Standard General Ledger requirements.

The Census Bureau was considered stand alone in FY 2010 and was not part of the DOC Consolidated Financial
Statements review. The audit was performed by KPMG LLP and conducted in accordance with OMB guidance and
Government Auditing Standards. The audit is required annually to ensure we are in compliance with all appropriate
rules and regulations. The Census Bureau received an unqualified audit opinion and had no material weaknesses.


Federal Financial Management Improvement Act (FFMIA) OF 1996
The FFMIA requires the U.S. Department of Commerce federal agencies to substantially comply with federal
financial management system requirements, federal accounting standards, and the U.S. Standard General Ledger at
the transaction level. The Census Bureau complied substantially with the FFMIA for FY 2010.

DEBT MANAGEMENT
The Census Bureau has debt which includes health benefits and other indebtedness for current and former
employees. The Debt Collection Improvement Act (DCIA) of 1996 established the Treasury Department as the
collection agency for eligible federal agency debts that are more than 180 days delinquent.

On September 30, of the $2.7 million in gross receivables from the public, $321 thousand was over 180-days
delinquent. Debt delinquent for 180 days or more in the amount of $9 thousand has been referred to Treasury.
The amount of $308 thousand is from foreign/sovereign debtors and is not covered by the Debt Collection
Improvement Act of 1996.

The Census Bureau consistently met the Office of Management and Budget Performance Metric for delinquent debt
referral in FY 2010. Delinquent debt (180 days or older) on average accounted for 4.17 percent of the Census
Bureau’s total receivables due from the public during FY 2010. Agencies maintaining their debt at less than 10
percent of their total receivables are considered fully successful by OMB standards.




18 FY 2010 Performance and Accountability Report	                                                     U.S. Census Bureau
                                                                    management’s discussion and analysis section


PAYMENT PRACTICES

Central Contractor Registration (CCR) Policy
Pursuant to the Federal Acquisition Regulation (FAR) 4.11, prospective vendors must be registered in CCR prior to
the award of a contract, basic agreement, basic ordering agreement, or blanket purchase agreement. According
to FAR 52.204-7, to register in CCR, a firm must have a Data Universal Numbering System (DUNS) number. The
DUNS number is assigned by Dun & Bradstreet, Inc. (D&B) to identify unique business entities. Electronic funds
transfer (EFT) and assignment of claims are stated in FAR 52.232-33 Paragraph G: “EFT and assignment of claims.
If the Contractor assigns the proceeds of this contract as provided for in the assignment of claims terms of this
contract, the Contractor shall require as a condition of any such assignment, that the assignee shall register
in the CCR database and shall be paid by EFT in accordance with the terms of this clause. In all respects, the
requirements of this clause shall apply to the assignee as if it were the Contractor. EFT information that shows the
ultimate recipient of the transfer to be other than the Contractor, in the absence of a proper assignment of claims
acceptable to the Government, is incorrect EFT information within the meaning of paragraph (d) of this clause.”

Electronic Funds Transfer (EFT)
The Debt Collection Improvement Act of 1996 requires the use of EFT for most federal payments, with the
exception of tax refunds. The Census Bureau closely monitors its monthly EFT performance and submits
consolidated monthly EFT activity reports to the Office of Management and Budget (OMB) as part of the Department
of Commerce’s Performance Metrics data.

The Census Bureau’s vendor EFT percentage decreased from 98 percent for FY 2009 to 96.13 percent for FY
2010. The Census Bureau decline is largely due to how the employees were paid through the Decennial Applicant
Personnel and Payroll System. Many of the employees were paid via check rather than EFT. Although there was a
decline, the Census Bureau in FY 2010, on average, met OMB’s vendor EFT performance goal of 96 percent. The
Census Bureau has maintained its overall EFT percentage at 98 percent from FY 2009 to FY 2010. The Census
Bureau believes its continued efforts to implement new or improved business processes will lead to further
increases in vendor and overall EFT percentages.

Bankcards
The number of bankcards has fluctuated in proportion to the Census Bureau acquisition cycle. Reversing a long-
term trend, the number of active bankcards increased from 190 on September 30, 2009, to 301 on September 30,
2010. The Census Bureau continues to monitor the internal controls surrounding bankcard purchases to ensure
that all such purchases are legal and proper.

Prompt Payment
The Prompt Payment Act of 1982 requires agencies to pay their bills to vendors on a timely basis and to pay
interest penalties when payments are made late. The Census Bureau closely monitors its prompt payment
performance and submits monthly consolidated prompt payment activity reports to OMB as part of the Census
Bureau’s Performance Metrics data.

The Census Bureau has maintained its prompt payment performance at 99.7 percent from FY 2009 to FY 2010.
Prompt payment performance percentages are maintained at a high level by working closely with program offices
and departments.

LIMITATIONS OF THE FINANCIAL STATEMENTS
The Census Bureau has prepared its FY 2010 financial statements in accordance with the requirements of Office of
Management and Budget (OMB) Circular No. A-136, Financial Reporting Requirements, as amended, and guidance
provided by the Department of Commerce. OMB Circular No. A-136 incorporates the concepts and standards




U.S. Census Bureau   	                                               FY 2010 Performance and Accountability Report 19
management’s discussion and analysis section


contained in the Statements of Federal Financial Accounting Concepts and the Statements of Federal Financial
Accounting Standards recommended by the Federal Accounting Standards Advisory Board and approved by the
Secretary of the Treasury, the Director of the OMB, and the Comptroller General.

The financial statements have been prepared to report the financial position, net cost of operations, changes in net
position, and status and availability of budgetary resources.

These financial statements have been prepared to report the overall financial position and results of operation of
the Census Bureau, pursuant to the requirements of 31 U.S.C. 3515(b). While the statements have been prepared
in accordance with the form and content prescribed by OMB Circular No. A-136, the statements are in addition to
the financial reports used to monitor and control budgetary resources that are prepared from the same books and
records. Additionally, they have been prepared from the books and records of the Census Bureau in accordance
with Generally Accepted Accounting Principles for federal entities.

These financial statements should be read with the realization that the Census Bureau is a component of the U.S.
government, a sovereign entity. One implication of this is that the liabilities cannot be liquidated without legislation
that provides the resources to do so.

GOVERNMENT ACCOUNTABILITY OFFICE (GAO) HIGH RISK ISSUES/2010 CENSUS
The High-Risk Series is a biennial report to Congress on major problems costing the federal government billions of
dollars annually. GAO has placed the U.S. Census Bureau’s 2010 Census program on this high risk list. Below is the
issue raised by GAO, and the actions the Census Bureau has taken and continues to take to address these issues.

Issues
Automation problems and uncertain costs and plans may jeopardize the success of the 2010 Census. These issues
warrant immediate attention. The decennial census is a constitutionally mandated activity that produces critical
data used to apportion congressional seats and to allocate over $400 billion in federal assistance each year.

Goal
Strengthen management and oversight and reduce risks for the 2010 Census.

Challenges/Actions
•• Develop an integrated and comprehensive plan to control costs and manage operations

    •• Improved management practices and communications by conducting regularly scheduled meetings with
       internal and external management/stakeholders.

    •• Managed the schedule with weekly analysis of the activities and milestones contained in the integrated
       project schedule.

•• Strengthen risk management activities and systems testing

    •• Developed mitigation and contingency plans to accompany the risk management plan.

    •• Reviewed and updated the risk register to ensure ongoing involvement of senior management in risk
       review.

    •• Developed detailed testing plans, including gap analysis.

    •• Conducted and monitored system testing across the 2010 Census program.




20 FY 2010 Performance and Accountability Report	                                                         U.S. Census Bureau
                                                                   management’s discussion and analysis section


•• Improve management of the Field Data Collection Automation (FDCA) effort

     •• Conducted and monitored extensive testing, including coding and unit testing, field testing, production
        integration testing, and operational readiness testing (by the Census Bureau and contractors).

     •• Successfully completed Address Canvassing ahead of schedule, using automated handheld computers
        supplied by the FDCA contractor.

     •• Oversaw successful deployment, by the FDCA contractor, of equipment and systems to the local census
        offices.



AMERICAN RECOVERY AND REINVESTMENT ACT OF 2009 (RECOVERY ACT)
The Recovery Act was signed into law by President Obama on February 17, 2009. It is an unprecedented effort to
jumpstart the U.S. economy, create or save millions of jobs, and put a down payment on addressing long-neglected
challenges so the country can thrive in the twenty-first century. The Recovery Act is an extraordinary response to
promote economic recovery and growth, and includes measures to modernize the nation’s infrastructure, enhance
energy independence, expand educational opportunities, preserve and improve affordable health care, provide tax
relief, and protect those in greatest need.


Bureau 	                         Census Bureau

Program	                         Periodic Censuses and Programs

Amount	                          $1 billion

Description	                     To ensure a successful 2010 Decennial Census, the Census Bureau received 	
	                                $1 billion to hire new personnel for partnership and outreach efforts to minority 		
	                                communities and hard-to-reach populations, increase targeted media purchases, 		
	                                and ensure proper management of other operational and programmatic risks.

	                                The following four areas received the $1 billion in funds: Early Operations 		
	                                ($745.1 million), Partnership ($117.4 million), Advertising ($107.5 million), and 		
	                                Coverage Follow-Up ($30 million).

	                                Early Operations activities included: Group Quarters Enumeration (college 		
	                                dormitories, military quarters, nursing homes, etc.), Update/Enumerate 		
	                                (an enumerator updates residential addresses and conducts an interview of 		
	                                the resident(s) using a paper questionnaire), Update/Leave (geographic areas 	
	                                where the type of address does not indicate the location of the housing unit
	                                or the delivery point for receiving mail does not ensure the mail gets to the
	                                correct unit, e.g., mail left at a central location because of broken mail banks),
	                                 and Local Census Office Staffing Operation. Partnership staff provided
	                                information and training about the 2010 Census to community-based
	                                organizations, religious leaders, local businesses, and media outlets in designated
	                                hard-to-count areas. Advertising activities involved numerous paid media sources
	                                such as TV, radio, online, magazines, newspapers, and outdoor and commuter 	
	                                media. The Coverage Follow-Up Operation involved hiring and training
	                                approximately 1,250 additional temporary telephone interviewers to re-contact 		
	                                households, with available telephone numbers, to verify the
	                                information on the census form, make corrections as warranted, and obtain any
	                                missing demographic information—based on specific criteria.

	                                For more detailed information about the Census Bureau’s Recovery Act Program
	                                plans, visit the following Web sites: www.census.gov/recovery or
	                                www.recovery.gov



U.S. Census Bureau   	                                              FY 2010 Performance and Accountability Report 21
management’s discussion and analysis section




Performance Measures	            The following measures applied to the respective activities:

	                                Early Operations—No specific measures of the Early Operations identified above 	
	                                for Recovery Act funds, though the following measure applies to base funding of
	                                all 2010 Census operations: At least 90 percent of key activities completed on 		
	                                schedule.

	                                These activities included the following:

	                                • Complete Group Quarters validation and advanced visit operations.

	                                • Conduct the 2010 Census.

	                                • Conduct Census Operations in Puerto Rico and the Island Areas.

	                                • Conduct Nonresponse Followup operations.

	                                • Begin Coverage Measurement field operations.

	                                • Conduct Coverage Followup field operations.

	                                Partnership—Recovery Act and Base fund targets for 2010 included the following:

	                                •  Maintaining a diverse partnership staff of 2,707, with 100 languages spoken, to
	                                   reach hard-to-count populations in an effort to positively affect response rates.
	                                   More than 3,000 partnership staff were hired, speaking 145 languages.

	                                •  Partnership staff continuing to establish partnerships and work with
	                                   approximately 120,000 active partner organizations in support of the 2010
	                                   Census. 230,750 partnerships were established.

	                                •  30,000 joint Questionnaire Assistance Centers (QAC) and Be Counted (BC) sites 	
	                                   and 10,000 stand alone BC sites ready to assist citizens in hard-to-count areas.
	                                   More than 50,000 potential joint BC/QAC sites and 20,000 potential stand-
	                                   alone BC sites were identified among partner organizations. From these sites, 		
	                                   we selected 39,111 joint sites and 11,101 stand-alone BC site that met
	                                   our needs based on location, access to the public, and who the organization
	                                   served. Additional sites were held in reserve, if needed.

	                                •  10,000 Complete Count Committees to educate the community on the
 	                                  importance of the 2010 Census and motivate residents to complete the 		
	                                   questionnaire. 10,251Complete Count Committees were formed and trained.

	                                •  Partnership staff thanking community organizations and other partners for their 	
	                                   help with the 2010 Census. Staff are now conducting the Thank You effort.




22 FY 2010 Performance and Accountability Report	                                                      U.S. Census Bureau
                                                             management’s discussion and analysis section


	                        Advertising—

	                        Measure: Complete key activities for the combined 2010 Census Communications
	                        Campaign

	                        2010 targets using Recovery and Reinvestment Act funding:

	                        •  For the Awareness Phase, reach 95 percent of the population at least 5 more
 	                          times above base target through paid advertising. The launch of the Awareness
	                           Phase of the campaign began on January 17, 2010. During the Awareness
	                           Phase the plan was to reach 95 percent+ of the population at least 5 more
	                           times. The actual reach and frequency figures will be determined following a
	                           post-media buy analysis that will be completed in the fall of 2010.

	                        •  For the Motivation Phase, reach 95 percent of the population at least 11 more
 	                          times above base target through paid advertising. The Motivation Phase began
	                           on March 1, 2010, and the plan was to reach 95 percent+ of the population at
	                           least 11 more times. The actual reach and frequency figures will be determined
	                           following a post-media buy analysis that will be completed in the fall of 2010.

	                        •  For the Support NRFU Phase, reach lowest responding population at least 2
	                           more times through paid advertising. The actual reach figures will be
	                           determined following a post-media buy analysis that will be completed in the
	                           fall of 2010.

	                        Coverage Follow-Up—

	                        Measure: Complete 65 percent of Coverage Follow-Up cases by the end of production.

	                        2010 targets using Recovery and Reinvestment Act funding:

	                        •  Complete 65 percent of Coverage Follow-Up cases for approximately 1.1 million
	                           cases. As of August 9, 2010, 65 percent of all Coverage Follow-Up cases have 		
	                           been completed.

	                        •  Provide approximately 1,250 Coverage Follow-Up workers to support
	                           approximately 1.1 million Coverage Follow-Up cases. ARRA supported 1,250
	                           Coverage Follow-Up workers.


Comments	                All Early Operations and activities are complete.

	                        It is difficult to know how each component of the Partnership Program influenced
	                        people to take part in the census, and a detailed assessment will be done
	                        later. However, the Census Bureau strongly believes that the integrated
	                        communications campaign contributed much to the American public’s better than
	                        expected “participation” in the census. Seventy-two percent of American
	                        households that received a census form in the mail returned the completed
	                        questionnaire. 	 This matched the Census 2000 participation rate despite a more
	                        challenging census environment in 2010; the fact that the public’s participation in
	                        all types of surveys has declined since 2000; and the fact that the United States is a
	                        larger, more diverse population than in 2000, with more types of housing
	                        arrangements, and subject to more household dislocations due to the severe
	                        economic downturn.




U.S. Census Bureau   	                                       FY 2010 Performance and Accountability Report 23
Performance Section




                                                              Census workers hand-delivered 2010 Census question­
                                                              naires to roughly 12 million addresses across the nation,
                                                              mostly in rural areas where people do not receive mail at
                                                              the same location as their residence.




An inflatable, 20-foot census form looms over Daley Plaza in Chicago to raise awareness
and encourage participation in the 2010 Census. These replicas were displayed in
high traffic areas in cities across the country in March as part of the Census Bureau’s
multifaceted communications campaign.




U.S. Census Bureau   	                                            FY 2010 Performance and Accountability Report 25
                                                                                                                   performance section


INTRODUCTION TO THE PERFORMANCE SECTION
In FY 2010, the Census Bureau accomplished its mission through two strategic outcome goals that encompass
shorter-term outcomes and priorities. These outcomes have specific performance targets within a given fiscal year.

The summary chart below provides the historical trend data for Census Bureau financial obligations and full-time
equivalent (FTE) resources. A table summarizing the performance outcomes follows in the next subsection. Other
tables in following subsections show the status of the performance measures associated with an outcome.

Historical details on each performance result are located in Appendix A, which provides individual measurement
results and descriptions of actions to be taken if the measure does not achieve positive results. It includes
explanations and strategies to address performance deficiencies. Appendix B presents definitions of the measures.



                                              TOTAL BUDGETARY RESOURCES: 2005–2010


                             Fiscal Dollars
                             Dollars in millions
              $7,000                                                                                             $6,437.0
              $6,000

              $5,000

              $4,000                                                                           $3,589.7

              $3,000

              $2,000                                                          $1,620.0
                                   $1,013.6         $1,078.9   $1,173.0
              $1,000

                         0
                                     2005             2006      2007            2008              2009             2010




                             FTE1

            100,000                                                                                               93,605


              80,000


              60,000


              40,000
                                                                                                 26,660
              20,000
                                     8,433             8,778    8,418           9,051

                         0
                                     2005              2006      2007           2008              2009             2010
                             1
                                 FTE—Full-time equivalent


      Note: Obligations differ from amounts shown in the Statement of Budgetary Resources because they do not include Expired and the
      Working Capital Funds. The FY 2009 Obligations have been restated to include Recovery Act Funding.




U.S. Census Bureau   	                                                             FY 2010 Performance and Accountability Report 27
Performance
performance section


Public Benefits and Summary of Performance

 Strategic Goal                                                         Targets Met or Exceeded
 Provide benchmark measures of the U.S. population, economy, and        2 of 3
 governments

 Provide current measures of the U.S. population, economy and           2 of 2
 governments



Current and benchmark measures of the U.S. population, economy, and governments play a vital role in the
nation’s economic well-being. These measures focus on meeting the needs of policymakers, businesses and
nonprofit organizations, and the public for this information while respecting individual privacy, ensuring
confidentiality, and reducing respondent burden. The result of achieving these measures promotes a better
understanding of the U.S. economy in that the activities involved provide timely, relevant, and accurate economic
data in an objective and cost-effective manner.

The Census Bureau’s statistical programs and services are widely used by policymakers, business leaders, and the
U.S. public. As a primary source for measures of macroeconomic activity, the Census Bureau provides the nation
with the picture of its economic health.

Strategic Goal 1:
Provide benchmark measures of the U.S. population, economy, and governments
The Census Bureau provides benchmark measures of the nation’s population, economy and governments to
help decision-makers and the public make informed decisions. The Census Bureau’s cyclical programs provide
the foundation for critical national, state, and local data. These include the economic census and census of
governments, which are conducted every 5 years, the 2010 Census program, the Demographic Surveys Sample
Redesign Program, and the Intercensal Demographic Estimates Program.

The decennial census is used to provide the official population counts for determining the allocation to states of
seats in the U.S. House of Representatives and for determining how the boundary of districts are defined for those
seats. The Census Bureau provides to each state the data to be used to determine congressional, state, and local
legislative boundaries. The decennial census provides comprehensive and useful demographic information about
all people living in the United States, Puerto Rico, and the associated Island Areas. The program also provides
data for small geographic areas and population groups that federal agencies need to implement legally mandated
programs. More than $400 billion a year is distributed to state and local governments using formulas that are
based on data such as Census Bureau data on state population and personal income.

The economic census provides comprehensive, detailed, and authoritative facts about the structure of the
U.S. economy ranging from the national to the local level. The 2007 Economic Census covered nearly 29 million
business locations and 84 percent of the nation’s economic activity. The data help build the foundation for the
gross domestic product (GDP) and other indicators of economic performance.

The census of governments is the only source of comprehensive and uniformly classified data on the economic
activities of state and local governments. The 2007 Census of Governments covered about 90,000 local
governments, including thousands of subordinate agencies. This complex and ever-changing government universe
is a major economic factor totaling 12 percent of GDP and includes 14 percent of the U.S. workforce.

The Demographic Surveys Sample Redesign Program designs and selects samples for most major recurring
national household surveys conducted by the Census Bureau to account for changes in the population and
demographics, survey requirements and objectives, and survey methods and technology. The Intercensal
Demographic Estimates Program provides updated estimates of the U.S. population for the nation, states, counties,
cities, and townships.




28 FY 2010 Performance and Accountability Report	                                                     U.S. Census Bureau
                                                                                                performance section



 Performance Measure                                         Target                 Actual                Status

 Correct street features in the TIGER (geographic)           Increase               50.87 Response        Exceeded
 database – number of counties completed to more             TIGER update           Rate
 effectively support: Census Bureau censuses and             submissions
 surveys, facilitate the geographic partnerships between     electronically by
 federal, state, local and tribal governments, and           10 percent
 support the E-Government initiative in the President’s
 Management Agenda
 Complete key activities for cyclical census programs        At least 90 percent    93 percent of         Met
 on time to support effective decision-making by             of key activities      key activities
 policymakers, businesses, and the public and meet           completed on           completed on
 constitutional and legislative mandates                     schedule               schedule
 Meet or exceed the overall federal score of customer        Meet or Exceed         Census Score: 69      Not met
 satisfaction on the American Customer Satisfaction          the overall Federal
 Index (ACSI). (This measure applies to the second           score of 74
 performance outcome in this objective as well)


FY 2010 Status
In FY 2010, the Census Bureau completed activities related to updates to street features in the Topologically
Integrated Geographic Encoding and Referencing System (TIGER®) database for eligible counties in the United
States, Puerto Rico, and the Island Areas.

The 2010 Census program:

•	   Completed the opening of the remaining local census offices.

•	   Successfully completed the Group Quarters Validation and Group Quarters Advanced Visit operations.

•	   Conducted the 2010 Census (including the Mailout/Mailback, Update Enumerate, Update Leave, Group
     Quarters Enumeration, Military Enumeration, Remote Alaska, Service Based Enumeration, and Enumeration
     at Transitory Locations operations).

•	   Conducted follow-up operations such as Nonresponse Followup, Coverage Followup, Vacant Delete Check,
     and Field Verification.

•	   Conducted census operations in Puerto Rico and the Island Areas.

•	   Completed data capture of the previously mentioned operations.

•	   Began Coverage Measurement field operations.

Key accomplishments of the economic census during FY 2010 included the continued delivery of some 1,600 data
releases through the web-based American FactFinder dissemination system. The 2007 Economic Census Industry
Series was released in November 2009, and the 2007 Economic Census Geographic Area Series was released in
August 2010. The flow of 2007 Economic Census data products will continue through FY 2011.

During FY 2010, principal activities of the census of governments program included the release of the final census
of governments component on local government finance, conducting a comprehensive evaluation of program
components and content with data users and providers, preparing a detailed project plan for all phases of the
2012 census of governments, and continuing modernization and reengineering efforts of the business processes
and corresponding software processing systems used for data entry, collection, processing, review, and analysis.

The Demographic Surveys Sample Redesign Program continued to make progress on moving toward using the
Master Address File as the sampling frame for the surveys by devising a frame improvement strategy. This
strategy, to continue address listing in limited situations, will meet the surveys’ diverse requirements related to
coverage, cost, and flexibility.


U.S. Census Bureau   	                                                FY 2010 Performance and Accountability Report 29
Performance
performance section


The Intercensal Demographic Estimates Program met the schedule for the release of the official set of July 2009
population estimates for the nation, states, counties, cities, and townships. Also in FY 2010, work continued
on improving the estimates of net international migration. This work was included in the production of the July
2009 estimates series. The Census Bureau continues to work on the plans for evaluating the postcensal estimates
relative to the 2010 Census results. To that end, the Census Bureau has awarded eight contracts to external
experts for work on this evaluation.

The Census Bureau’s target to meet or exceed the overall federal score of customer satisfaction on the
E-government ACSI was not met. The Census Bureau believes this is because visitors who enter Web sites
containing a wealth of information and who are not necessarily familiar with the data available tend to experience
more challenges finding the information they seek. In October 2009, the Census Bureau launched its newly
designed Web site and continues to expand its corporate look and feel across the site. It anticipates that these
new designs will make it easier for visitors to find the information they seek.

Strategic Goal 2:
Provide current measures of the U.S. population, economy, and governments
(ESA/CENSUS)
The Census Bureau collects and disseminates a wide range of current demographic and economic information to
help decision makers and the public make informed decisions. The Census Bureau’s current economic statistics
program provides public and private data users with monthly, quarterly, and annual national statistical profiles of
the U.S. economy. Agencies like the Federal Reserve Board and the Bureau of Economic Analysis are major users of
these data. These data are used to develop the GDP, production indexes, and congressional economic projections.
Also, these data allow users to gauge competition, calculate operating ratios, analyze changes in the nation’s
economic structure, calculate market share, locate business markets, and design sales territories.

The Census Bureau’s current demographic statistics program provides elected officials and government and
business managers with reliable social and economic data to make informed and cost-effective decisions. Data
from these programs are used to create official U.S. measures of employment, unemployment, and poverty and
widely used measures of income and health insurance coverage. These programs include:

•• The Current Population Survey (CPS), which provides the official source of monthly labor force estimates,
   quarterly housing vacancy estimates, and annual estimates of work experience, income, poverty, migration,
   and school enrollment. In FY 2010, the CPS implemented some questionnaire changes to the Annual Social
   and Economic (ASEC) Supplement to the CPS in an effort to improve the annual poverty estimate. The CPS also
   continued use of the contact-history instrument to help the Census Bureau’s Field Division better target the best
   time for staff to visit or call during the survey data collection operation.

•• The Survey of Income and Program Participation (SIPP) is the major source of information on the economic
   well being of Americans over time. The data are used to estimate future costs and coverage for government
   programs and to provide detailed statistics on the distribution and source of income in the United States. In
   FY 2010, the Census Bureau completed data collection through wave 6 of the SIPP 2008 panel, which began in
   September 2008.

•• Additionally, efforts continued to improve data collection and processing systems to better meet the policy and
   operational needs of the country. In FY 2010, these efforts included:

    •• Evaluation of the 2008 Event History Calendar (EHC) Paper Test, which continued by comparing the actual
       2004 Panel SIPP responses, the paper EHC responses, and administrative records data.

    •• Completion of and field test with the 2010 Field Test prototype instrument.

    •• Continued involvement of stakeholders in all aspects of the reengineering, including preparations for
       and holding of another meeting of the American Statistical Association/Statistical Research Methods
       subcommittee on SIPP, as well as numerous presentations describing progress on the reengineering at
       meetings and conferences.




30 FY 2010 Performance and Accountability Report	                                                      U.S. Census Bureau
                                                                                                   performance section



 Performance Measure                        Target                          Actual                       Status

 Achieve predetermined collection           At least 90 percent             100 percent of key           Met
 rates for Census Bureau censuses           of key surveys meet             surveys meet or exceed
 and surveys in order to provide            or exceed their pre-            their predetermined
 statistically reliable data to support     determined collection           collection rates at
 effective decision-making of               rates at planned levels of      planned levels of
 policymakers, businesses, and the          reliability                     reliability
 public
 Release data products for key              (1) 100 percent of              (1) 100 percent of           Met
 Census Bureau programs on time to          economic indicators             economic indicators
 support effective decision-making of       released on schedule            released on schedule
 policymakers, businesses, and the          (2) At least 90 percent of      (2) 92 percent of other
 public                                     other data products from        data products from key
                                            key censuses and surveys        censuses and surveys
                                            released on schedule            released on schedule


FY 2010 Status
In FY 2010, the Census Bureau released nearly 400 economic reports, including 118 principal economic indicators.
Responses to censuses and surveys provide information on retail and wholesale trade and selected service
industries, construction activity, quantity and value of industrial output, capital expenditure, e-commerce sales,
foreign trade, and state and local government activities. All targeted current surveys programs achieved their
response rate targets for FY 2010.

During FY 2010, the Census Bureau began the process of expanding the annual and quarterly surveys of service
industries. Prior to the 2009 services expansion, the Service Annual Survey (SAS) coverage accounted for 30
percent of GDP and the Quarterly Services Survey (QSS) coverage comprised 17 percent of GDP. The SAS and the
QSS, as fully expanded, will each achieve matching coverage with the services portion of the economic census
(55 percent of GDP) by FY 2011. In FY 2010, the Census Bureau increased the quarterly services coverage of GDP
from 17 percent to 36 percent while, at the same time, the Census Bureau will completely eliminate the annual
data coverage gap with this year’s collection and next year’s publication of the 2009 SAS.

Also in FY 2010, the Quarterly Financial Report program expanded coverage to include the information, and
professional, scientific, and technical services (excluding legal services) sector. This is the first expansion to the
program in nearly 25 years.

In January 2010 the Census Bureau began releasing the U.S. State Import Data Series. These data will provide states
and businesses an opportunity to track and analyze specific commodities and industries by ultimate destination.
With this additional information, better economic forecasting and improved monitoring of goods imported into the
United States will be possible.

For the SIPP survey, the Census Bureau achieved a 82 percent response rate, which met the target level. The CPS also
met its target level response rate of at least 90 percent in FY 2010. CPS also met all of its data release targets,
disseminating 12 data products and 5 supplement data products during the fiscal year.

The other Current Demographic Statistics programs also met their target response rates in FY 2010. Maintaining
high response rates is especially important because it is a key measure of quality for Census Bureau customers.

The Census Bureau met its targets to achieve at least 90 percent of the planned response rates and dissemination
targets for Census Bureau surveys. Response rates are a measure of the quality of survey data. Dissemination
targets are a measure of timeliness of the data. By meeting these targets, the Census Bureau is providing its users
with the high quality and timely data they need to make important policy decisions that help improve the nation’s
social and economic conditions.




U.S. Census Bureau   	                                                   FY 2010 Performance and Accountability Report 31
Performance
performance section


The American Community Survey (ACS), which collects and tabulates long-form data every year throughout the
decade, achieved a 97.5 percent weighted response rate, using three modes of data collection (mailout, telephone,
and personal interview), exceeding its target of 92 percent. Core ACS tables were released in the fourth quarter of
the fiscal year, thus achieving the target release date of September 30, 2010. In addition, in the first quarter 2010,
ACS data were also released for all places with a population of 20,000 and larger.

The Boundary and Annexation Survey (BAS) program achieved a 92.9 percent response rate, exceeding the target
of 85 percent. The BAS is used to update information about the legal boundaries and names of all governmental
units in the United States.




32 FY 2010 Performance and Accountability Report	                                                        U.S. Census Bureau
Financial Section




                                                               Director Groves greets Nickelodeon’s Dora the Explorer
                                                               and families at Mary’s Center in Washington, D.C., during
                                                               the launch of “Children Count Too,” a public awareness
                                                               campaign reminding parents to include their young
                                                               children on the 2010 Census form.




U.S. Census Bureau Director Robert M. Groves talks to a student at Bancroft Elementary
School during a launch event for Census in Schools in Wilmington, Delaware. Census in
Schools was designed to reach 118,000 schools and 56 million students in kindergarten
through 12th grade nationwide.




U.S. Census Bureau                                                 FY 2010 Performance and Accountability Report 33
                                                                                                       financial section




                                   Message from the Chief Financial Officer
                                   The Census Bureau is proud to close the fiscal year having met the many
                                   challenges associated with the 2010 Decennial Census. We are privileged to
                                   provide the most accurate and reliable information about our nation’s people in
                                   the local, state, and tribal levels of government. As the leading statistical agency
                                   in the government, we are committed to honoring the privacy and confidentiality
                                   of our citizens while conducting and communicating globally.

                                    We are also committed to reporting timely and accurate financial information by
                                    efficiently collecting, recording, and processing all financial transactions on an
                                    accrual and budgetary basis. In FY 2009, the Census Bureau was recognized as
                                    a stand-alone entity and was given an unqualified opinion on the Consolidated
Balance Sheet. Our financial system of record is the Commerce Business System (CBS). It is our means for preparing
financial statements in conformity with generally accepted accounting principles for the federal government.
Responsibility for the financial information presented rests solely with our management.

The Census Bureau continues to maintain its high standard of financial management and accountability in
reporting. This fiscal year, the Census Bureau accomplished more than $1.7 billion in operational savings in
conducting the 2010 Decennial Census due to unused contingency funds and better management of operational
and labor costs. Decennial employees worked efficiently and tirelessly in conducting the 2010 Decennial Census,
which allowed for lower operational and labor costs. The cost of conducting the 2010 Decennial Census is
reflected in our financial statements.

At September 30, 2010, the Census Bureau had $3.3 billion in assets, representing an $848 million increase
from FY 2009 assets of $2.5 billion. Liabilities owed to the public or other federal agencies, including wages and
future benefits and other liabilities, totaled $541.8 million. This represents an increase of $116.4 million over
the previous year total liabilities of $425.4 million. The increase in assets and liabilities is primarily the result of
conducting the 2010 Decennial Census.

The Census Bureau’s Performance and Accountability Report (PAR) includes an analysis of our performance,
financial operations for the fiscal year, and the independent auditors’ report. The PAR highlights the individual
programs that are supported by the Census Bureau. This report is in accordance with the Reports Consolidation Act
of 2000, the Government Management Reform Act of 1994, the Government Performance and Results Act of 1993,
the Chief Financial Officer’s (CFO) Act of 1990, and the Federal Managers’ Financial Integrity Act of 1982.

We look forward to continued success in the new fiscal year.




			
			                                                 Ted A. Johnson
			                                                 Associate Director for Administration and
			                                                 Chief Financial Officer (CFO)
			                                                 November 9, 2010




U.S. Census Bureau   	                                                 FY 2010 Performance and Accountability Report 35
Financial section


PRINCIPAL FINANCIAL STATEMENTS
United States Department of Commerce
Economics and Statistics Administration
U.S. Census Bureau

Consolidated Balance Sheet
As of September 30, 2010 and 2009
(In thousands)


                                                                          2010           2009
                                                                        Audited        Audited

ASSETS
 Intragovernmental:
 Fund Balance with Treasury (Note 2)                                 $3,116,374    $2,279,483
 Accounts Receivable, Net (Note 3)                                       11,858        12,474
 Advances and Prepayments                                                31,826        13,548
 Total Intragovernmental                                              3,160,058     2,305,505

 Accounts Receivable, Net (Note 3)                                         2,620      2,579
 Operating Materials and Supplies, Net (Note 4)                              167     45,242
 General Property, Plant and Equipment, Net (Note 5)                     180,267    141,710
 Advances and Prepayments                                                  1,153      1,239
TOTAL ASSETS                                                         $3,344,265 $2,496,275
Stewardship PP&E (Note 12)

LIABILITIES
 Intragovernmental:
  Accounts Payable                                                       $8,964        $24,694
  Unearned Revenue                                                      138,831         82,944
  Accrued FECA Liability (Note 6)                                        13,534         12,952
  Other (Note 6 and 7)                                                   13,991          4,456
 Total Intragovernmental                                                175,320        125,046


  Accounts Payable                                                      147,001       102,188
  Actuarial FECA Liability (Note 6)                                      97,492        65,052
  Accrued Payroll and Annual Leave (Note 6)                              92,309       118,553
  Unearned Revenue                                                        2,686         2,630
  Contingent Liabilities (Note 6 and 9)                                  11,443         4,000
  Other (Note 6 and 7)                                                   15,612         7,947
 TOTAL LIABILITIES                                                    $541,863      $425,416
 Commitments and Contingencies (Note 9)

 NET POSITION
  Unexpended Appropriations                                           $2,407,027 $1,730,348
  Cumulative Results of Operations                                       395,375    340,511
TOTAL NET POSITION                                                   $2,802,402 $2,070,859

TOTAL LIABILITIES AND NET POSITION                                   $3,344,265 $2,496,275




  The accompanying notes are an integral part of these statements.



36 FY 2010 Performance and Accountability Report	                                 U.S. Census Bureau
                                                                                                   financial section


United States Department of Commerce
Economics and Statistics Administration
U.S. Census Bureau

Consolidated Statement of Net Cost
For the Period Ended September 30, 2010 and 2009
(Note 10 and 11)
(In thousands)
                                                                                              2010            2009
                                                                                            Audited       Unaudited
Strategic Goal 1: Provide benchmark measures of the
U.S. population, economy, and governments.
Program Cost                                                                             $6,345,003       $2,548,395
 Less: Earned Revenues                                                                            0                0
Total Net Program Cost                                                                  $6,345,003       $2,548,395


Strategic Goal 2: Provide current measures of the
U.S. population, economy, and governments.
Program Cost                                                                               $357,244         $377,743
 Less: Earned Revenues                                                                     (229,415)        (238,281)
Total Net Program Cost                                                                    $127,829         $139,462


Total Entity
Program Cost                                                                             $6,702,247       $2,926,138
 Less: Earned Revenues                                                                    (229,415)        (238,281)
Net Cost of Operations                                                                  $6,472,832       $2,687,857




   The accompanying notes are an integral part of these statements.



U.S. Census Bureau   	                                                FY 2010 Performance and Accountability Report 37
Financial section


United States Department of Commerce
Economics and Statistics Administration
U.S. Census Bureau

Consolidated Statement of Changes in Net Position
For the Period Ended September 30, 2010 and 2009
(In thousands)
                                                                          2010          2009
                                                                        Audited     Unaudited

Cumulative Results of Operations
Beginning Balances                                                     $340,511        $183,851

Budgetary Financing Sources:
   Appropriations Used                                                6,446,149       2,785,995

Other Financing Sources (Nonexchange)
   Transfers In/(Out) Without Reimbursement, Net                            (13)           (151)
   Imputed Financing Sources From Costs Absorbed by Others               81,560           58,673
   
Total Financing Sources                                                6,527,696      2,844,517
Net Cost of Operations                                               (6,472,832)    (2,687,857)
Net Change                                                              54,864          156,660
Total Cumulative Results of Operations                                $395,375        $340,511

Unexpended Appropriations:
Beginning Balance                                                    $1,730,348        $348,004

Budgetary Financing Sources:
   Appropriations Received                                             7,254,731      4,169,850
Appropriations Transferred In/(Out), Net                                       0               0
   Other Adjustments                                                   (131,903)         (1,511)
   Appropriations Used                                               (6,446,149)    (2,785,995)
   Total Budgetary Financing Sources                                    676,679      1,382,344
Total Unexpended Appropriations                                       2,407,027      1,730,348

Net Position                                                         $2,802,402    $2,070,859




  The accompanying notes are an integral part of these statements.



38 FY 2010 Performance and Accountability Report	                                  U.S. Census Bureau
                                                                                                   financial section


United States Department of Commerce
Economics and Statistics Administration
U.S. Census Bureau

Combined Statement of Budgetary Resources (Note 13)
For the Period Ended September 30, 2010 and 2009
(In thousands)
                                                                                             2010            2009
                                                                                           Audited       Unaudited
BUDGETARY RESOURCES:

Unobligated Balance, Brought Forward, October 1                                         $1,163,997         $280,643
Recoveries of Prior-year Unpaid Obligations                                                 26,300           36,915
Budget Authority
 Appropriations                                                                          7,254,731         4,169,850
 Spending Authority From Offsetting Collections
   Earned
   Collected                                                                               821,793           765,402
   Change in Receivables From Federal Sources                                                (508)             1,792
   Changes in Unfilled Customers Orders
    Advance Received                                                                        55,967           (7,480)
    Without Advance                                                                         36,664          (11,968)
   Subtotal Budget Authority                                                             8,168,647        4,917,596
  Nonexpenditure Transfers, Net                                                                  0                 0
  Permanently Not Available                                                              (131,903)           (1,511)
TOTAL BUDGETARY RESOURCES                                                              $9,227,041       $5,233,643

STATUS OF BUDGETARY RESOURCES:

Obligations Incurred
    Direct                                                                              $6,204,763       $3,351,242
    Reimbursable                                                                           725,495          718,404
Total Obligations Incurred                                                               6,930,258        4,069,646
Unobligated Balance
    Apportioned                                                                          1,853,538          924,897
    Exempt From Apportionment                                                              429,093          230,120
Total Unobligated Balance                                                                2,282,631        1,155,017
Unobligated Balance Not Available                                                           14,152            8,980
TOTAL STATUS OF BUDGETARY RESOURCES                                                    $9,227,041       $5,233,643




   The accompanying notes are an integral part of these statements.



U.S. Census Bureau   	                                                FY 2010 Performance and Accountability Report 39
Financial section


U.S. Department of Commerce
Economics and Statistics Administration
U.S. Census Bureau

Combined Statement of Budgetary Resources
For the Period Ended September 30, 2010 and 2009—Con.
(In thousands)


                                                                           2010           2009
                                                                         Audited      Unaudited
CHANGE IN UNPAID OBLIGATED BALANCE, NET:

Unpaid Obligated Balance, Net, Brought Forward, October 1
    Unpaid Obligations, Brought Forward                               $1,129,791        $448,869
    Less: Uncollected Customer Payments, Brought Forward                  (14,374)        (24,550)
Total Unpaid Obligated Balance, Net, Brought Forward                    1,115,417         424,319
Obligations Incurred                                                    6,930,258       4,069,646
Less: Gross Outlays                                                   (7,163,718)     (3,351,809)
Less: Recoveries of Prior-year Unpaid Obligations                         (26,300)        (36,915)
Change in Uncollected Customer Payments                                   (36,156)          10,176
 Total Unpaid Obligated Balance, Net, End of Period                    $819,501      $1,115,417

Unpaid Obligated Balance, Net, End of Period
    Unpaid Obligations                                                   870,031      $1,129,791
    Less: Uncollected Customer Payments                                  (50,530)        (14,374)
TOTAL UNPAID OBLIGATED BALANCE, NET, END OF PERIOD                     $819,501      $1,115,417

NET OUTLAYS:

Gross Outlays                                                          $7,163,718     $3,351,809
Less: Offsetting Collections                                            (877,760)      (757,922)
NET OUTLAYS                                                           $6,285,958     $2,593,887




   The accompanying notes are an integral part of these statements.



40 FY 2010 Performance and Accountability Report	                                    U.S. Census Bureau
                                                                                                    financial section


Notes to the Financial STATEMENTS
(All tables are presented in thousands)


Note 1. Summary of Significant Accounting Policies

Reporting Entity
The Census Bureau is a component entity of the Economics and Statistics Administration, under the U.S. Department
of Commerce (DOC). All Census Bureau funding is under the Commerce and Housing Credit budget functional
classification. The Census Bureau collects and provides high-quality statistics about the American people and economy.
To deliver high value, the Census Bureau must target measurements on those trends and segments of the population
and economy most critical to continued American success and prosperity. The Congressional Act of March 6, 1902,
established a Census Bureau and provides for various surveys and censuses. Title 13 of the U.S. Code regulates laws
pertaining to the Census Bureau’s statistical programs and ensures confidentiality of data. Section 401 of Executive
Order 12656 directs the Secretary of Commerce to provide for the collection and reporting of census information on
human and economic resources and to maintain a capability to conduct emergency surveys to provide information on
the status of these resources as required for national security emergencies.

Budget Authority Sources
To support the mission, the Census Bureau uses financial resources from the following:

Salaries and Expenses (S&E) Appropriation
Annual 1-year appropriations are provided by Congress and are available for obligation in the fiscal year for which
they are provided to fund many of the current surveys and other statistical services of the Census Bureau that are
conducted each year.

Periodic Censuses and Programs (PCP) Appropriation
Congress provides 2-year appropriations to fund the decennial census conducted every 10 years; the economic
censuses and the census of governments, which are conducted every 5 years; and other programs.

American Recovery and Reinvestment Act (ARRA) Appropriation
The ARRA is an economic stimulus package estimated at $787 billion that was implemented by proposals from
President Barack Obama and enacted by Congress in February 2009. The ARRA includes programs consisting of an
expansion of unemployment benefits, domestic spending in education, health care, and infrastructure including
the energy sector, to name a few. The ARRA provided $1 billion to help the Census Bureau conduct a successful
2010 Census.

Working Capital Fund (WCF)
This is a non-appropriated account used to finance services within the Census Bureau. These services are more
efficiently performed on a centralized basis and include reimbursable statistical work the Census Bureau performs
for other federal agencies, state and local governments, foreign governments, and the private sector.

Census Programs
The Census Bureau is the largest statistical agency of the federal government. While best known for the decennial
census, the Census Bureau conducts other surveys and censuses that measure changing individual and household
demographics and economic conditions of the United States. Major program functions and activities include:

Decennial Census
The decennial census is authorized by Article 1, Section 2, of the U.S. Constitution. The decennial census is the
nation’s oldest and most comprehensive source of population and housing information. The decennial program
consists of the:

•• 2010 Census—which provides the official population counts for the United States.

•• American Community Survey—which collects long-form data (detailed characteristics) every year throughout the
   decade using a large household survey.



U.S. Census Bureau   	                                               FY 2010 Performance and Accountability Report 41
Financial section


•• MAF/TIGER® (Master Address File/Topologically Integrated Geographic Encoding and Referencing) Enhancement
   Program—which works with private and public sectors to modernize and enhance the accuracy of the nation’s
   road map.

Decennial census data provide the basis for apportioning among the states the seats in the U.S. House of
Representatives and for developing the districts for those members of Congress and state legislatures. Census
2010 will be the largest in America’s history.

Economic Programs
Economic programs produce information critical to the economic functioning of the United States and its citizens.
Current data, such as housing starts, retail sales, wholesale trade, merchandise imports and exports, mining, and
manufacturing, are collected each month. Data from the economic census and census of governments, which are
conducted once every 5 years, provide comprehensive, detailed, and authoritative facts about the structure and
function of the U.S. economy and its public sector.

Demographic Programs
Important demographic efforts include the preparation of official population estimates and projections, plus the
collection of survey data for official statistics on income and poverty, families, race and ethnic groups, and the
nation’s housing characteristics.

Reimbursable and Other Programs
Reimbursable programs receive funds from private-sector businesses and from public-sector entities, such as the
Departments of Labor, Health and Human Services, Housing and Urban Development, and Justice, in exchange
for the Census Bureau’s survey and data collection services. Other programs include Geographic Support, Data
Processing Systems, Demographic Surveys Sample Redesign, and Intercensal Demographic Estimates.

Basis of Accounting and Presentation
The Census Bureau’s fiscal year ends September 30. The Census Bureau records accounting transactions on both the
accrual and budgetary basis of accounting. Under the accrual method, revenues are recognized when earned, and
expenses are recognized when a liability is incurred, without regard to receipt or payment of cash. Budgetary accounting
is exclusive to governments. Its purpose is to record the status of appropriations and appropriation receipts, allocate
budget authority, record valid obligations, and control the use of budgetary resources. Budgetary accounting facilitates
compliance with legal constraints and controls over the use of federal funds.

The financial statements are prepared from the accounting records of the Census Bureau in accordance with Generally
Accepted Accounting Principles (GAAP) for federal entities and the form and content for entity financial statements
specified by the Office of Management and Budget (OMB) Circular No. A-136, Financial Reporting Requirements, as
well as the accounting policies of the Census Bureau. In addition, the Census Bureau continues to adhere to its current
business practices as well as the current accounting policies. GAAP for federal entities are the principles prescribed by
the Federal Accounting Standards Advisory Board, which is the official standard-setting body of the federal government.

Elimination of Intra-Census Transactions and Balances
All intra-Census transactions and balances among Census Bureau funds have been eliminated from the Census
Bureau financial statements.

Revenues and Other Financing Sources
The Census Bureau receives the funding needed to support its programs through appropriations. Both annual and
multiyear appropriations are received and used, within statutory limits, for operating and capital expenditures.
Additional resources are obtained through the collection of amounts from reimbursable programs performed for
other governmental and nongovernmental entities.

Appropriations are recognized as revenue at the time the related program or administrative expenses are incurred.
The consumption of appropriations used to purchase property and equipment is recognized when the purchases
are made.




42 FY 2010 Performance and Accountability Report	                                                          U.S. Census Bureau
                                                                                                    financial section


•• Appropriations—Through congressional appropriations, the Census Bureau is provided financing sources for its
   programs. The funds are warranted by the U.S. Department of Treasury and apportioned by the OMB.

•• Recoveries—Funds are authorized by the OMB’s Letter of Apportionment to expend recoveries from prior-years’
   obligations.

•• Reimbursements—Reimbursements are authorized in various appropriations based on the Letter of
   Apportionment.

•• Imputed Financing Sources—In accordance with federal GAAP, certain expenses should be reported by agencies
   whether or not these expenses would be paid by the agency that incurs the expense. The Census Bureau’s
   imputed expenses are for health care, life insurance, and pension plans for employees, which will be paid
   by the Department of Labor. Expenses are recorded at year-end for losses in litigation proceedings against
   the Census Bureau. The Census Bureau recognizes losses paid by the Treasury Judgment Fund as an imputed
   financing source.

Assets
Assets defined as Entity Assets, such as Fund Balance With Treasury, Property and Equipment, and Accounts
Receivable, are available for use in Census Bureau operations. Most of the Census Bureau’s assets are Entity Assets
and are available to carry out the mission of the Census Bureau, as appropriated by Congress.

Nonentity Assets are assets for which an agency has fiduciary responsibility and are not available for use in the
agency’s operations. Nonentity Assets consist of suspense deposit funds and miscellaneous receipts that are not
available to finance the Census Bureau activities. Fiduciary Cash and other assets are not assets of the federal
government and accordingly are not recognized on the balance sheet. The Census Bureau fiduciary activity is not a
significant amount.

Fund Balance With U.S. Treasury
Funds with the U.S. Treasury consist of appropriated and deposited funds that are available to pay current liabilities
and finance authorized purchase commitments. The U.S. Treasury processes the Census Bureau’s cash receipts and
disbursements. The Census Bureau does not maintain cash in commercial bank accounts. Nonfederal receipts are
deposited daily in commercial banks and the Federal Reserve Bank, which transfer the receipts to the U.S. Treasury.
Funds with the U.S. Treasury represent appropriated and reimbursable funds available to finance expenditures.
Included in the Fund Balance With Treasury are entity deposit funds for unfinished reimbursable work with other
federal agencies and the public. Other funds include nonentity deposit funds, which are funds that are not
available to finance the Census Bureau activities. (Note 2)

Accounts Receivable, Net of Allowance
Accounts Receivables are recognized primarily when the Census Bureau performs reimbursable services or sells
goods. Accounts Receivables are reduced to net realizable value by an Allowance for Uncollectible Accounts. This
allowance is calculated quarterly using methods such as the identification of specific delinquent receivables and the
analysis of aging schedules and historical trends adjusted for current market conditions.

The amounts due for public receivables are stated net of an allowance for uncollectible amounts. The Census Bureau
estimates the allowance for uncollectible accounts receivable with the public through systematic methodology
in accordance with SFFAS No. 1, Paragraph 46, Accounting for Selected Assets and Liabilities, based on historical
collection information. This allowance is based on an analysis of the outstanding balances. No allowance for
uncollectible accounts is recognized for intragovernmental accounts receivable because these accounts are due from
other federal agencies and are deemed to be fully collectible. (Note 3)

The Census Bureau also records as accounts receivable amounts due from the public for employees’ indebtedness
and health benefits. Accounts receivable due from the public also include amounts owed by state and local
governments and nonprofit organizations that are not allowed to pay for services in advance.

Advances and Prepayments
Advances are payments the Census Bureau has made to cover a part or all of the cost of goods and services to
be acquired. Although payment has been made, the expense is not recorded until goods have been received
or services have been performed. The Census Bureau has prepayments and advances with public, as well as
intragovernmental, vendors.


U.S. Census Bureau   	                                               FY 2010 Performance and Accountability Report 43
Financial section


Operating Materials and Supplies
Operating Materials and Supplies is comprised of employment forms, payroll forms, various other administrative
forms, and training and production materials. Operating Materials and Supplies is stated at historical cost and is
adjusted for changes related to consumption and acquisition. Operating Materials and Supplies is consumed on a
first-in, first-out basis and is used entirely at the discretion of the Census Bureau without restriction. (Note 4)

General Property, Plant and Equipment
The General Services Administration provides the land and buildings that the Census Bureau operates in and charges
the Census Bureau a standard level users charge that approximates the commercial rental rates for similar properties.
(Note 5)

•• Capitalization Thresholds—An asset purchased for $25 thousand or more with a useful life of at least 2 years is
   recorded as a capital asset and depreciated/amortized over its estimated economic useful life. In establishing
   useful lives for assets, due consideration is given to the Census Bureau’s actual prior experiences on the
   replacement of similar assets. An asset purchased for less than the capitalization threshold will be expensed
   when purchased. Similar items purchased in bulk that are individually below $25 thousand are capitalized
   when the total purchase is $250 thousand or more.

•• Internal Use Software—The Census Bureau records Internal Use Software (IUS) according to the SFFAS No. 10,
   Accounting for Internal Use Software. IUS includes software that is commercial off-the-shelf (COTS) purchased,
   contractor developed, or developed in-house by federal employees. The Census Bureau records COTS costs
   as PP&E. The Census Bureau also records COTS costs as IUS in development where costs are accumulated as
   work in progress until final acceptance testing has been successfully completed. Once completed, the costs are
   transferred to PP&E, with amortization expense recognized on a monthly basis.

•• Leasehold Improvements—Leasehold improvements are expenditures relating to the alteration or
   modernization of a leased asset that appreciably broadens the asset’s period of usefulness or improves its
   functionality. The improvement is depreciated over the life of the lease.

•• Construction in Progress (CIP)—CIP refers to the temporary classification of assets that are being built/
   assembled before being placed in service. The Census Bureau accumulates the costs associated with
   improvements to leased property in the CIP account until the improvement is completed and is placed in
   service.

Stewardship PP&E
The Census Bureau’s stewardship PP&E consists only of Heritage Assets. Heritage Assets are unique for their
historical or natural significance; for their cultural, educational, or artistic importance; or for their significant
architectural characteristics. These items reflect the Census Bureau’s historic contribution to the nation’s growth
and well-being and demonstrate milestones achieved throughout history. These items deemed to be the Census
Bureau’s Heritage Assets are a compilation of equipment, books, artifacts, and plaques that are unique to the
Census Bureau or have had a significant impact on accomplishing the mission of the Census Bureau. Some items
because of their age or obvious historical significance are inherently historical artifacts.

The administration of Heritage Assets and the categories described as “Collectible Assets” and “Artwork, Books,
and Gifts” follow the Department of Commerce, U.S. Census Bureau, Policies and Procedures Manual, Chapter K-9.
These policies for Heritage Assets are in compliance with the goals and principles of the Census Bureau established
to guide the acquisition, withdrawal, maintenance, use, and disposal of the Heritage Asset consistent with
statutory requirements, prohibitions, and limitations governing the Census Bureau and its heritage assets.

The Census Bureau’s property management officer ensures all Heritage Assets are cataloged and stored in a safe,
secure environment allowing for appropriate preservation and conservation. All necessary actions will be taken to
reduce deterioration due to environmental conditions and to limit damage, loss, and misuse of Heritage Assets.
The current condition of Heritage Assets at the Census Bureau is deemed as “Good.” The Census Bureau expects
that these assets will be preserved indefinitely.




44 FY 2010 Performance and Accountability Report	                                                         U.S. Census Bureau
                                                                                                       financial section


Liabilities
Liabilities represent the amount of money or other resources that are owed by the Census Bureau as the result of
transactions or events that have occurred. Liabilities for which an appropriation has not been enacted are classified
as unfunded liabilities.

All expenses and related accrued liabilities are recorded and reported whether or not amounts are funded.
Appropriations law, however, prohibits federal agencies from obligating or spending funds for which
appropriations have not been authorized. Current unfunded expenses are reported in the Statement of Net Cost,
and the related liabilities are included in the Balance Sheet to provide accountability for unfunded expenses
anticipated to be funded by future appropriations.

Unearned Revenue
Intragovernmental Unearned Revenue includes advances from federal agencies for goods and/or services that have
not yet been provided. Unearned Revenue with the public is comprised mostly of unfinished work for state and
local governments, nonprofit organizations, and universities.

Accrued Payroll and Annual Leave
Accrued Payroll and Benefits represent salaries, wages, and benefits earned by the employees, but not disbursed
as of September 30, 2010. The intragovernmental employees’ benefits accrued are future retirement and social
security benefits payable to other federal agencies, not to the employees.

Annual leave is accrued as earned, and the accrual is reduced as leave is taken. Each year, the balance in the
accrued annual and compensatory leave account is adjusted to reflect current leave balances and pay rates. To the
extent current or prior-year appropriations are not available to fund annual leave earned but not taken, funding will
be obtained from future financing sources. Sick leave and other types of nonvested leave are expensed as taken.

Accrued payroll and benefit costs represent current liabilities. Census employees that are paid by the NFC are paid
on a biweekly basis with a 2-week delay. The Census Bureau accrued NFC payroll costs for the period of September
12, 2010, through September 25, 2010, and the last 5 days of September 2010. Decennial Applicant Personnel
and Payroll System (DAPPS) payroll is expended on a weekly basis. NFC payroll accrued at September 30, 2010,
includes benefits that the Census Bureau pays to U.S. Office of Personnel Management for the Thrift Savings Plan
and to the Social Security Administration, in addition to the amounts paid to employees. Census Bureau temporary
employees working for the field decennial are paid by the DAPPS payroll system. (Note 6)


Federal Employees’ Compensation Act (FECA) Liability
FECA provides income and medical cost protection to covered federal civilian employees injured on the job,
employees who have incurred a work-related occupational disease, and beneficiaries of employees whose death is
attributable to a job-related injury or occupational disease. Claims incurred for benefits for Census Bureau employees
under FECA are administered by the Department of Labor (DOL) and are ultimately paid by the Census Bureau.

FECA liability represents the accrued liability, which represents money owed for claims paid, and the actuarial liability,
which represents the expected future liability for approved compensation claim cases.

Future workers’ compensation estimates were generated from an application of actuarial procedures developed to
estimate the liability for FECA benefits. The liability for future workers’ compensation benefits includes the expected
liability for death, disability, medical, and miscellaneous costs for approved compensation cases. The liability is
determined utilizing historical benefit payment patterns related to a specific period to estimate the ultimate payments
related to that period.




U.S. Census Bureau   	                                                 FY 2010 Performance and Accountability Report 45
Financial section


Employee Retirement Plans
Most employees of the Census Bureau participate in either the Civil Service Retirement System (CSRS) or Federal
Employees’ Retirement System (FERS) defined-benefit pension plans. FERS was established by the enactment of
Public Law 99-335. Pursuant to this law, FERS and social security automatically cover most employees hired after
December 31, 1983. Employees who had 5 years of federal civilian service prior to 1984 and who are rehired after
a break in service of more than 1 year may elect to join the FERS and social security system or be placed in the
CSRS offset retirement system.

The Thrift Savings Plan (TSP) is a retirement savings and investment plan for employees covered by either FERS
or CSRS. The Census Bureau does not make contributions for CSRS employees. The Census Bureau makes a
mandatory contribution of 1 percent of basic pay for FERS-covered employees and matching contributions of up
to 5 percent of basic pay for FERS-covered employees who contribute to the TSP. The maximum amount that either
FERS or CSRS employees may contribute to the plan in calendar year 2010 is $22 thousand. This amount consists
of the maximum amount of $16.5 thousand that all employees may contribute and an additional “catch-up”
amount of $5.5 thousand that employees who are 50 years or older may contribute. The sum of employee and
Census Bureau contributions for TSP is transferred to the Federal Retirement Thrift Investment Board to administer.

The Census Bureau financial statements do not report CSRS or FERS assets, accumulated plan benefits, or liabilities,
if any, which are applicable to Census Bureau’s employees. Such reporting is the responsibility of the U.S. Office of
Personnel Management as the administration of these plans.

SFFAS No. 5, Accounting for Liabilities of the Federal Government, and OMB Circular No. A-136, Financial Reporting
Requirements, require federal entities to recognize an expense for pension and other retirement benefits at the
time employees’ services are rendered.

Net Position
The Census Bureau’s net position consisted of the following:

•• Unexpended Appropriations—Unexpended appropriations include appropriations not yet obligated or
   expended, represented by the unobligated balances, and undelivered orders of the Census Bureau’s
   appropriated funds. Multiyear appropriations remain available to the Census Bureau for obligation in future
   periods. Unobligated balances associated with an appropriation that expires at the end of the fiscal year remain
   available for obligation adjustments, but not new obligations, until that account is closed; five years after the
   appropriation expires.

•• Cumulative Results of Operations—Cumulative results of operations at September 30, 2010 and 2009, include
   the accumulated difference between expenses consuming budgetary resources and financing sources providing
   budgetary resources during the current and prior fiscal years; the Census Bureau’s investment in capitalized
   assets, which increases as capital assets are acquired and decreases as capital assets are depreciated or
   disposed of; and the excess of certain liabilities not consuming budgetary resources, net of certain assets not
   providing budgetary resources, whose liquidation will require obligation of funds and may require funding
   from future congressional appropriations or other budgetary resources.

Commitments
Commitments are preliminary actions that will ultimately result in an obligation to the U.S. government if carried
through, such as purchase requisitions, estimated travel orders, or unsigned contracts/grants. Commitments are
disclosed in Note 9, Commitments and Contingencies.

Use of Estimates
The preparation of financial statements in accordance with GAAP requires management to make estimates and
assumptions that affect the amounts reported in the financial statements and accompanying footnotes. Actual
results could differ from those estimates.




46 FY 2010 Performance and Accountability Report	                                                      U.S. Census Bureau
                                                                                                financial section


Note 2. Fund Balance with Treasury
As of September 30, 2010 and 2009, Fund Balance with Treasury consisted of the following:


                                                                                   2010                      2009
Fund Balance:
 General Funds                                                               $2,574,339                $1,902,896
 Revolving Funds                                                                541,945                   376,518
 Other Fund Types                                                                    90                        69
Total                                                                       $3,116,374                $2,279,483


Status of Fund Balance with Treasury
 Unobligated Balance
  Available                                                                  $2,282,631                $1,155,017
  Unavailable                                                                    14,152                     8,980
 Obligated Balance Not Yet Disbursed                                            819,501                 1,115,417
 Non-Budgetary                                                                       90                        69
Total                                                                       $3,116,374                $2,279,483




Note 3. Accounts Receivable, Net
The Census Bureau maintains an accounts receivable subsidiary ledger for amounts due for goods and services
provided to other federal agencies, the public, and foreign entities. In addition, the Department of Agriculture,
National Finance Center (NFC), maintains an accounts receivable subsidiary ledger on behalf of the Census Bureau
for salary overpayments, health benefits, and other indebtedness of most current and noncurrent employees. The
NFC receivables include current receivables billed to employees and in the process of repayment as well as unbilled
receivables that will not be billed until the employee returns to active status and a salary offset is initiated.

                                                                                                            2010
                                                                          Gross       Allowance             Total
Intragovernmental                                                        $11,858               $0         $11,858
With the public                                                            2,737            (117)           2,620
Total                                                                   $14,595           ($117)         $14,478


                                                                                                            2009
                                                                          Gross       Allowance             Total
Intragovernmental                                                        $12,474              $0          $12,474
With the public                                                            2,585              (6)           2,579
Total                                                                   $15,059             ($6)         $15,053




U.S. Census Bureau   	                                             FY 2010 Performance and Accountability Report 47
Financial section


Note 4. Operating Materials and Supplies
The Census Bureau handles all functions related to the tracking and management of operating materials and
supplies. This would include the monitoring of material moved into and out of stockroom locations and the
reconciling of the operating materials and supplies balance. Operating materials and supplies at the Census Bureau
represents goods and materials held available in stock and are not intended for sale. As of September 30, 2010
the operating materials and supplies balance at the Census Bureau has a net realized value of zero. The operating
materials and supplies which were not used during the 2010 Decennial Census will be considered as excess. Until
the completion of all efforts the operating materials and supplies balance will be considered obsolete.	



                                                    Cost Flow Assumption                   2010              2009
Materials and Supplies For Use                      First-in, first-out                 $26,089           $50,183
Postal Meter                                        First-in, first-out                      167                85
Allowance                                                                               (26,089)           (5,026)
Total                                                                                      $167          $45,242



Note 5. General Property, Plant and Equipment, Net
The Census Bureau owns property and equipment that are essential to its operations. Property and equipment are
capitalized and depreciated/amortized over the useful life of the asset and are applied on a straight-line basis.
Information regarding the method of depreciation and the useful life is provided in the schedule below:



                                                 Useful                        Accumulated
                                                    Life     Acquisition      Depreciation/                 2010
                                                (years)            Value      Amortization         Net Book Value
Other Personal Property                                4        $171,940           ($93,759)              $78,181
Leasehold improvements                             2–­20          20,809             (2,180)               18,629
Construction-in-Progress                             NA            1,025                   0                1,025
Internal Use Software                               3–5          159,223            (88,044)               71,179
Internal Use Software-in-Progress                    NA           11,253                   0               11,253
Total                                                          $364,250          ($183,983)             $180,267




                                                 Useful                        Accumulated
                                                   Life      Acquisition      Depreciation/                 2009
                                                (years)           Value       Amortization         Net Book Value

Other Personal Property                                 4       $119,258           ($84,021)               $35,237
Leasehold improvements                               5–20          5,434             (1,241)                 4,193
Construction-in-Progress                               NA         14,245                   0                14,245
Internal Use Software                                 3–5        110,594            (70,990)                39,604
Internal Use Software-in-Progress                      NA         48,431                   0                48,431
Total                                                          $297,962          ($156,252)              $141,710




48 FY 2010 Performance and Accountability Report	                                                    U.S. Census Bureau
                                                                                                  financial section


Note 6. Liabilities Not Covered by Budgetary Resources
Liabilities not covered by budgetary resources result from the receipt of goods and services, or the occurrence
of events, for which budgetary resources are not available. Liabilities not covered by budgetary resources as of
September 30, 2010 and 2009, consist of the following:

                                                                             2010                              2009
Intragovernmental:
Accrued FECA Liability                                                    $13,534                           $12,952
Total Intragovernmental                                                  $13,534                           $12,952

With the Public
Accrued Annual Leave                                                      $46,722                           $48,331
Actuarial FECA Liability                                                   97,492                            65,052
Contingent Liabilities                                                     11,443                             4,000
Other Liabilities                                                              46                                 0
Total Liabilities Not Covered By Budgetary Resources                     $169,237                          $130,335
Total Liabilities Covered By Budgetary Resources                         $372,627                          $295,081
Total Liabilities                                                       $541,864                          $425,416




Actuarial FECA Liability:

Actuarial FECA liability is calculated annually, as of September 30. For discounting projected annual future benefit
payments to present value, the interest rate assumptions used by DOL were as follows:

                                                                          FY 2010                             FY 2009
Year 1                                                                      3.65%                              4.22%
Year 2 and Thereafter                                                       4.30%                              4.72%

The wage inflation factors (Cost of Living Allowance) and medical inflation factors (Consumer Price Index–
Medical) applied to the calculation of projected future benefits, and also used to adjust the methodology’s
historical payments to current year constant dollar, were as follows:

FY 2010

Fiscal Year                                               Cost of Living Allowance   Consumer Price Index–Medical
2011                                                                         2.23%                         3.45%
2012                                                                         1.13%                         3.43%
2013                                                                         1.70%                         3.64%
2014                                                                         1.90%                         3.66%
2015                                                                         1.93%                         3.73%

FY 2009

Fiscal Year                                               Cost of Living Allowance   Consumer Price Index–Medical
2010                                                                         0.47%                         3.42%
2011                                                                         1.40%                         3.29%
2012                                                                         1.50%                         3.48%
2013                                                                         1.80%                         3.71%
2014                                                                         2.00%                         3.71%




U.S. Census Bureau   	                                              FY 2010 Performance and Accountability Report 49
Financial section


Note 7. Other Liabilities
Other liabilities include measurable and probable expected future outflows of resources resulting from past
transactions or events and the estimated cost of conditions, situations, or circumstances that will be resolved in
the future. “Other Liabilities” represents the amounts not otherwise classified to specific liability accounts.

•• Employer Contribution and Payroll Taxes—This is the Census Bureau’s portion of payroll taxes and benefit
   contributions, such as health and life insurance for covered employees and retirement benefits, including the
   agency’s contribution to the Thrift Savings Plan.

•• Other Postemployment Benefits Due and Payable—This is the amount of defined contribution plans or defined
   benefit plans payable after employment.



                                                                                              2010               2009


Intragovernmental
Employer Contributions and Payroll Taxes                                                   $6,285             $4,456
Other Postemployment Benefits Due and Payable                                               7,706                  0
Total Intragovernmental                                                                   $13,991             $4,456

With the Public
Employer Contributions and Payroll Taxes                                                    $4,566             $7,947
Other Postemployment Benefits Due and Payable                                               11,000                  0

Total Other Liabilities                                                                   $29,557           $12,403




50 FY 2010 Performance and Accountability Report	                                                       U.S. Census Bureau
                                                                                                financial section


Note 8. Leases
The Census Bureau has commitments under Occupancy Agreements (OAs) with the General Services Administration
(GSA) for the majority of its leases. GSA leases are either federally owned or federally leased. In federally owned
space, rent is appraisal-based with other applicable charges. In leased commercial space, rent is a direct pass
through of the underlying GSA lease contract. The Census Bureau has unique operating space needs, usually
during decennial, for which space is rented directly by the Census Bureau under its delegated authority. The GSA
fee for the brokerage and other services provided to the Census Bureau is a flat 8 percent of the annual lease
contract plus the cost of separately contracted services. Space in federal buildings is appraised every 5 years.
Census Bureau leases are 10-year leases with 5- to 10- year firm terms.

Future lease payments are generally calculated based on the GSA annual rental rate adjustments for operating
costs and real estate taxes.

Operating Leases
                                                      2010                     2009
Expenses                                                                   Unaudited

Space Rentals
   GSA                                            $218,007                    $74,100
Commercial Rentals                                      10                          8
Total                                            $218,017                    $74,108




Future Payments Due

Fiscal Year                                            GSA               Commercial                         Total

2011                                               $63,483                        $10                    $63,493
2012                                                26,393                         10                     26,403
2013                                                10,820                         10                     10,830
2014                                                10,820                          6                     10,826
2015                                                10,820                          6                     10,826
Total                                            $122,336                         $42                  $122,378




U.S. Census Bureau   	                                             FY 2010 Performance and Accountability Report 51
Financial section


Note 9. Commitments and Contingencies
Contingencies

The Census Bureau is party to various routine administrative proceedings, legal actions, and claims brought by
or against it. It is the opinion of the Census Bureau management and legal counsel that the ultimate resolution of
these proceedings, actions, and claims will not materially affect the financial position or net costs of the Census
Bureau.

The Census Bureau is subject to suits where an adverse outcome is probable. Accordingly, $11.4 million and
$4 million were accrued on the Balance Sheet as of September 30, 2010 and 2009, respectively. Certain legal
judgments against the Census Bureau are paid for in full from the Judgment Fund maintained by Treasury. Once
the claims are settled or court judgments are assessed against the Census Bureau, the liability will be removed
from the financial statements and an “other financing source” (representing the amount to be paid by the Judgment
Fund) will be recognized.

The Census Bureau is party to other suits, with claim amounts of approximately $12 million as of September 30,
2010. In addition, there are other suits with no claim amounts. For all of these suits, it is reasonably possible that
an adverse outcome will result. However, it is not possible to estimate a range of loss. Of these claims, all had a
high probability of being funded by Treasury’s Judgment Fund.




52 FY 2010 Performance and Accountability Report	                                                         U.S. Census Bureau
                                                                                              financial section


Note 10. Intragovernmental Cost and Exchange Revenue
Earned revenue in reimbursable programs collected by the Census Bureau represent amounts collected, primarily
from other federal agencies, for work completed on a reimbursable basis. The majority of the reimbursable
agreements are based on preliminary cost estimates; therefore earned revenue is reflective of cost incurred.
Intragovernmental expenses relate to source of goods or services.

Total intragovernmental costs and exchange revenue, by strategic goal, for the years ended September 30, 2010
and 2009, were as follows:

                                                                                           2010          2009
                                                                                                     Unaudited
Strategic Goal 1: Provide benchmark measures of the
U.S. population, economy, and governments.
Intragovernmental Cost                                                                 $913,888       $420,184
Public Cost                                                                            5,431,115      2,128,211
Program Cost                                                                          6,345,003      2,548,395

Intragovernmental earned Revenue                                                             0               0
Public Earned Revenue                                                                        0               0
Program Revenue                                                                              0               0
Total Program Cost                                                                  $6,345,003      $2,548,395


Strategic Goal 2: Provide current measures of the
U.S. population, economy, and governments.
Intragovernmental Cost                                                                   $89,049        $90,148
Public Cost                                                                              268,195        287,595
 Program Cost                                                                           357,244        377,743

Intragovernmental Earned Revenue                                                       (225,331)       (233,225)
Public Earned Revenue                                                                    (4,084)         (5,056)
Program Revenue                                                                        (229,415)       (238,281)
Total Program cost                                                                    $127,829        $139,462

Total Entity
Program Cost                                                                         $6,702,247      $2,926,138
Less: Earned Revenues                                                                 (229,415)       (238,281)
Net Cost of Operations                                                              $6,472,832      $2,687,857




U.S. Census Bureau   	                                           FY 2010 Performance and Accountability Report 53
Financial section


Note 11. Statement of Net Cost by Major Programs
The following table further illustrates the Census Bureau’s Statement of Net Cost by Major Programs.
		

                                                                                              2010          2009
                                                                                                        Unaudited
Strategic Goal 1: Provide benchmark measures of the
U.S. population, economy, and governments.
Decennial Censuses
     Gross Costs                                                                        $5,421,638      $2,520,945
     Less: Earned Revenue                                                                        0               0
Net Program Costs                                                                       5,421,638       2,520,945
Recovery Act Programs
     Gross Costs                                                                           923,365    27,450
     Less: Earned Revenue                                                                        0         0
Net Program Costs                                                                         923,365     27,450
Net Program Costs for Strategic Goal 1                                                 $6,345,003 $2,548,395

Strategic Goal 2: Provide current measures of the
U.S. population, economy, and governments.
Demographic Programs
     Gross Costs                                                                           $28,611          $32,323
     Less: Earned Revenue                                                                        0                0
Net Program Costs                                                                           28,611           32,323
Economic Programs
     Gross Costs                                                                            84,879           69,982
     Less: Earned Revenue                                                                        0                0
Net Program Costs                                                                           84,879           69,982
Reimbursable and Other Programs
     Gross Costs                                                                            243,754         275,438
     Less: Earned Revenue                                                                 (229,415)       (238,281)
Net Program Costs                                                                            14,339          37,157
Net Program Costs for Strategic Goal 2                                                   $127,829        $139,462

Total Entity
Program Cost                                                                             6,702,247  2,926,138
Less: Earned Revenues                                                                    (229,415)  (238,281)
Net Cost of Operations                                                                 $6,472,832 $2,687,857




54 FY 2010 Performance and Accountability Report	                                                      U.S. Census Bureau
                                                                                                         financial section


Note 12. Stewardship PP&E
The Census Bureau’s stewardship PP&E consists only of Heritage Assets. They reflect the Census Bureau’s historic
contribution to the nation’s growth and well-being and demonstrate milestones achieved throughout history.


                                                   Collection-type Heritage Assets
                                                    Quantity of                                         Quantity of
                            Description of          Items Held            2010          2010            Items Held
Category                        Assets          September 30, 2009 Additions         Withdrawals    September 30, 2010
                         Publication, books,
                         manuscripts,
Collectable              photographs, and
Assets                   maps.                           19                 3             0                   22
                         Artifacts, artwork,
Artwork and              books, films,
Gifts                    instruments, records           132                 0             0                   132

Total                                                   151                 3             0                  154



Note 13. Apportionment Categories of Obligations Incurred and Undelivered Orders at
the End of the Period
The amounts of direct and reimbursable obligations incurred against amounts apportioned under Categories A, B,
and Exempt from Apportionment are as follows:							


                                                                                          FY 2010
                                                                        Direct       Reimbursable                   Total
Category A                                                          $6,174,915                  $0             $6,174,915
Category B                                                              29,848                   0                 29,848
Exempt from Apportionment                                                    0             725,495                725,495
Total                                                              $6,204,763            $725,495             $6,930,258

                                                                                          FY 2009
                                                                        Direct       Reimbursable                   Total
Category A                                                          $3,320,617                  $0             $3,320,617
Category B                                                              30,625                   0                 30,625
Exempt from Apportionment                                                    0             718,404                718,404
Total                                                              $3,351,242            $718,404             $4,069,646


In addition to the future lease commitments discussed in Note 8, the Census Bureau is obligated for the purchase
of goods and services that have been ordered, but not yet received. Total undelivered orders for all of the Census
Bureau activities were $668.1 million and $935.1 million as of September 30, 2010 and 2009, respectively.




U.S. Census Bureau   	                                                      FY 2010 Performance and Accountability Report 55
Financial section


Note 14. Reconciliation of Net Cost of Operations (Proprietary) to Budget
Most entity transactions are recorded in both budgetary and proprietary accounts. However, because different
accounting bases are used for budgetary and proprietary accounting, some transactions may appear in only one
set of accounts. The following reconciliation provides a means to identify the relationships and differences that
exist between the aforementioned budgetary and proprietary accounts. The reconciliation of net cost of operations
to budget for the years ended September 30, 2010 and 2009 are as follows:

                                                                                             2010         2009
                                                                                                      Unaudited
Resources Used to Finance Activities:

Budgetary Resources Obligated
Obligations Incurred                                                                   $6,930,258     $4,069,646
Less: Spending Authority From Offsetting Collections and Recoveries                     (940,216)      (784,660)
Obligations Net of Offsetting Collections and Recoveries                                5,990,042      3,284,986
Less:  Offsetting (Receipts)/Outlays, Net                                                       0              0
Net Obligations                                                                         5,990,042      3,284,986

Other Resources
Transfers In/Out without Reimbursement, Net                                                   (13)           (151)
Imputed Financing From Costs Absorbed by Others                                            81,560           58,673
Net Other Resources used to Finance Activities                                             81,547           58,522

Total Resources Used to Finance Activities                                            $6,071,589 $3,343,508

Resources Used to Finance Items Not Part of Net Cost of Operations:
Change in Budgetary Resources Obligated for Goods, Services & Benefits Ordered
but not yet Provided                                                                     $263,172      ($581,345)
Budgetary Offsetting Collections and Receipts That Do Not Affect Net Cost of 
Operations:
 Resources That Finance the Acquisition of Assets                                       (102,336)       (123,666)
Other Resources or Adjustments to Net Obligated Resources That Do Not 
Affect Net Cost of Operations:
 Transfers In/Out without Reimbursements, Net                                                  13              151
 Change in Unfilled Customer Orders                                                        92,632         (19,448)
Total Resources Used to Finance Items Not Part
of the Net Cost of Operations                                                          $253,481 ($724,308)
Total Resources Used to Finance Net Cost of Operations                                $6,325,070 $2,619,200




56 FY 2010 Performance and Accountability Report	                                                    U.S. Census Bureau
                                                                                                 financial section


Note 14. Reconciliation of Net Cost of Operations (Proprietary) to Budget—Con.


                                                                                               2010         2009
                                                                                                        Unaudited
Components of Net Cost of Operations That Will Not Require or 
 Generate Resources in the Current Period

 Components Requiring or Generating Resources in Future Periods:
 Increase in Accrued Annual Leave Liability                                                 ($1,610)        $8,332
 Increase (Decrease) in Contingent Liabilities                                                 7,443         2,600
 Increase (Decrease) in Accrued and Actuarial FECA Liability                                  33,021         5,238
 Increase (Decrease) in Other Liabilities without related Budgetary Obligations                   46             0

Total Components of Net Cost of Operations That Will Require or Generate 
Resources in Future Period                                                                  $38,900        $16,170

Components Not Requiring or Generating Resources:

 Depreciation, Amortization, and Depletion                                                  $47,622        $34,142
 Revaluation of Assets or Liabilities                                                           543         14,796
 Bad Debt Expense                                                                               112            (25)
 Other                                                                                       60,585          3,574




Total Components of Net
Cost of Operations That Will Not Require or Generate Resources                            $108,862        $52,487

Total Components of Net Cost of Operations That Will Require or Generate 
Resources in Current Period                                                              $147,762     $68,657
NET COST OF OPERATIONS                                                                  $6,472,832 $2,687,857




Required Supplementary Information (unaudited)
Required supplementary information includes financial information and disclosures that are required by the Federal
Accounting Standards Advisory Board (FASAB) but are not considered a part of the basic financial statements. The
amounts in the following table include both appropriated and reimbursable resources. In 2010, the Census Bureau
had four budget authority sources: (1) Salaries and Expenses; (2) Periodic Censuses and Programs; (3) Recovery
Act; and (4) Working Capital Fund. The detail of these sources can be found in Note 1. The amounts of Budgetary
Resources by Major Account follows.




U.S. Census Bureau   	                                              FY 2010 Performance and Accountability Report 57
Financial section


U.S. Department of Commerce
Economics and Statistics Administration
U.S. Census Bureau

Schedule of Budgetary Resources by Major Account for Fiscal Year Ended
September 30, 2010
(In thousands)

                                                                 Periodic
                                                     Salaries   Censuses              Working
                                                         and         and Recovery      Capital    Combined
                                                    Expenses    Programs      Act        Fund        Total
Budgetary Resources

Unobligated Balance, Brought Forward, 
  October 1                                           $5,420      $28,895 $899,562    $230,120    $1,163,997
Recoveries of Prior-year Unpaid Obligations              471       10,327    2,947      12,555        26,300
Budget Authority
    Appropriations                                   289,024     6,965,707       0          0       7,254,731
    Spending Authority From Offsetting 
  Collections
      Earned
        Collected                                          7        1,317      679     819,790        821,793
        Change in Receivables                              0            0        0       (508)          (508)
      Change in Unfilled Customer Orders
        Advances Received                                   0          0       0      55,967          55,967
        Without Advances                                    0          0       0      36,664          36,664
Subtotal Budget Authority                             289,031  6,967,024     679     911,913       8,168,647
Nonexpenditure Transfers Net                                0          0       0           0               0
Permanently Not Available                               (752)  (131,151)       0           0       (131,903)
TOTAL BUDGETARY RESOURCES                           $294,170 $6,875,095 $903,188 $1,154,588      $9,227,041

STATUS OF BUDGETARY RESOURCES:

Obligations Incurred
    Direct                                          $289,062    $5,012,516 $903,185         $0    $6,204,763
    Reimbursable                                           0             0        0    725,495       725,495
Total Obligations Incurred                           289,062     5,012,516  903,185    725,495     6,930,258
Unobligated Balance
    Apportioned                                        3,352     1,850,183       3           0      1,853,538
    Exempt From Apportionment                              0             0       0     429,093        429,093
Total Unobligated Balance                              3,352     1,850,183       3     429,093      2,282,631
Unobligated Balance Not Available                      1,756        12,396       0           0        $14,152
TOTAL STATUS OF BUDGETARY 
  RESOURCES                                         $294,170 $6,875,095 $903,188 $1,154,588      $9,227,041




58 FY 2010 Performance and Accountability Report	                                                U.S. Census Bureau
                                                                                             financial section


U.S. Department of Commerce
Economics and Statistics Administration
U.S. Census Bureau

Schedule of Budgetary Resources by Major Account for Fiscal Year Ended
September 30, 2010—Con.
(In thousands)


                                                             Periodic
                                                 Salaries   Censuses                  Working
                                                     and         and Recovery          Capital      Combined
                                                Expenses    Programs      Act            Fund          Total
CHANGE IN UNPAID OBLIGATED 
 BALANCE, NET:

    Unpaid Obligations, Brought Forward          $19,790     $872,166    $77,063      $160,772     $1,129,791
    Less: Uncollected Customer Payments, 
  Brought Forward                                      0             0          0      (14,374)      ($14,374)
Total Unpaid Obligated Balance, Net, Brought 
  Forward                                          19,790       872,166    77,063       146,398     $1,115,417
Obligations Incurred                              289,062     5,012,517   903,185       725,494     $6,930,258
Less: Gross Outlays                             (282,490)   (5,228,711) (942,187)     (710,330)   ($7,163,718)
Less: Recoveries of Prior-year
  Unpaid Obligations                                (471)     (10,327)    (2,947)      (12,555)      ($26,300)
Change in Uncollected Customer Payments                 0            0          0      (36,156)      ($36,156)
 Total Unpaid Obligated Balance, Net, 
  End of Period                                  $25,891     $645,645    $35,114     $112,851        $819,501

Unpaid Obligated Balance, Net, End of Period
    Unpaid Obligations                           $25,891     $645,645    $35,114      $163,381       $870,031
    Less: Uncollected Customer Payments                0            0          0       (50,530)      ($50,530)
TOTAL UNPAID OBLIGATED BALANCE, 
  NET, END OF PERIOD                             $25,891     $645,645    $35,114     $112,851        $819,501

NET OUTLAYS:

Gross Outlays                                   $282,490    $5,228,711 $942,187       $710,330     $7,163,718
Less: Offsetting Collections                          (7)       (1,317)   (679)       (875,757)    ($877,760)

NET OUTLAYS                                     $282,483 $5,227,394 $941,508 ($165,427)           $6,285,958




U.S. Census Bureau   	                                          FY 2010 Performance and Accountability Report 59
Independent Auditors’ Report




                                                          To prepare for the 2010 Census, approximately 140,000
                                                          Census Bureau employees checked 145 million addresses,
                                                          covering virtually every street in the United States along
                                                          the way. More than 120 million questionnaires were
                                                          delivered by mail to U.S. residential addresses between
                                                          March 15 and March 17, 2010.




April 10 was the national “March to the Mailbox” day, where communities across the
country reminded residents, through marches, walks, rallies and motorcades, to mail in
their 2010 Census forms.




U.S. Census Bureau                                                 FY 2010 Performance and Accountability Report 61
                                          independent auditors’ reporT




U.S. Census Bureau   	   FY 2010 Performance and Accountability Report 63
independent auditors’ reporT




64 FY 2010 Performance and Accountability Report	   U.S. Census Bureau
                                                                                                              independent auditors’ reporT




                                   KPMG LLP
                                   2001 M Street, NW
                                   Washington, DC 20036-3389




                                             Independent Auditors’ Report


   Inspector General, U.S. Department of Commerce and
   Director, U.S. Census Bureau:

   We have audited the accompanying consolidated balance sheets of the U.S. Census Bureau (Census
   Bureau) as of September 30, 2010 and 2009, and the related consolidated statements of net cost and
   changes in net position, and combined statement of budgetary resources for the year ended September 30,
   2010 (hereinafter referred to as “consolidated financial statements”). The objective of our audits was to
   express an opinion on the fair presentation of these consolidated financial statements. In connection with
   our fiscal year 2010 audit, we also considered the Census Bureau’s internal control over financial reporting
   and tested the Census Bureau’s compliance with certain provisions of applicable laws, regulations, and
   contracts that could have a direct and material effect on these consolidated financial statements.

   Summary
   As stated in our opinion on the consolidated financial statements, we concluded that the Census Bureau’s
   consolidated financial statements referred to above are presented fairly, in all material respects, in
   conformity with U.S. generally accepted accounting principles.

   Our consideration of internal control over financial reporting was not designed to identify all deficiencies
   in internal control over financial reporting that might be deficiencies, significant deficiencies, or material
   weaknesses. We did not identify any deficiencies in internal control over financial reporting that we
   consider to be material weaknesses as defined in the Internal Control Over Financial Reporting section of
   this report.

   The results of our tests of compliance with certain provisions of laws, regulations, and contracts disclosed
   no instances of noncompliance or other matters that are required to be reported herein under Government
   Auditing Standards and OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
   amended.

   The following sections discuss our opinion on the U.S. Census Bureau’s consolidated financial statements;
   our consideration of the Census Bureau’s internal control over financial reporting; our tests of the Census
   Bureau’s compliance with certain provisions of applicable laws, regulations, and contracts; and
   management’s and our responsibilities.

   Opinion on the Financial Statements
   We have audited the accompanying consolidated balance sheets of the U.S. Census Bureau as of
   September 30, 2010 and 2009, and the related consolidated statements of net cost and changes in net
   position and the combined statement of budgetary resources for the year ended September 30, 2010.



U.S. Census Bureau   	                                                                       FY 2010 Performance and Accountability Report 65



                                    KPMG LLP is a Delaware limited liability partnership,
                                    the U.S. member firm of KPMG International Cooperative
                                    (“KPMG International”), a Swiss entity.
independent auditors’ reporT




 U.S. Census Bureau
 November 9, 2010
 Page 2 of 4




 In our opinion, the consolidated financial statements referred to above present fairly, in all material
 respects, the financial position of the U.S. Census Bureau as of September 30, 2010 and 2009, and its net
 costs, changes in net position, and budgetary resources for the year ended September 30, 2010, in
 conformity with U.S. generally accepted accounting principles.

 We were not engaged to audit the accompanying consolidated statements of net cost and changes in net
 position, and the combined statement of budgetary resources for the year ended September 30, 2009, and
 accordingly, we do not express an opinion on these financial statements.

 The information in the Management’s Discussion and Analysis and Required Supplementary Information
 sections is not a required part of the consolidated financial statements, but is supplementary information
 required by U.S. generally accepted accounting principles. We have applied certain limited procedures,
 which consisted principally of inquiries of management regarding the methods of measurement and
 presentation of this information. However, we did not audit this information and, accordingly, we express
 no opinion on it.

 Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
 taken as a whole. The information in the Statement From the Director, Message From the Chief Financial
 Officer, Performance Section, and Appendixes are presented for purposes of additional analysis and are not
 required as part of the consolidated financial statements. This information has not been subjected to
 auditing procedures and, accordingly, we express no opinion on it.

 Internal Control Over Financial Reporting
 A deficiency in internal control exists when the design or operation of a control does not allow
 management or employees, in the normal course of performing their assigned functions, to prevent, or
 detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
 of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
 the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

 Our consideration of internal control over financial reporting was for the limited purpose described in the
 Responsibilities section of this report and was not designed to identify all deficiencies in internal control
 over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our
 fiscal year 2010 audit, we did not identify any deficiencies in internal control over financial reporting that
 we consider to be material weaknesses, as defined above.

 We noted certain additional matters that we have reported to management of the Census Bureau in two
 separate documents addressing information technology and other internal control matters, respectively.

 Compliance and Other Matters
 The results of our tests of compliance described in the Responsibilities section of this report disclosed no
 instances of noncompliance or other matters that are required to be reported herein under Government
 Auditing Standards or OMB Bulletin No. 07-04.



66 FY 2010 Performance and Accountability Report	                                                       U.S. Census Bureau
                                                                                       independent auditors’ reporT




   U.S. Census Bureau
   November 9, 2010
   Page 3 of 4




                                                    *******

   Responsibilities
   Management’s Responsibilities. Management is responsible for the consolidated financial statements;
   establishing and maintaining effective internal control; and complying with laws, regulations, and contracts
   applicable to the Census Bureau.

   Auditors’ Responsibilities. Our responsibility is to express an opinion on the Census Bureau’s
   consolidated financial statements referred to in the first paragraph above based on our audits. We
   conducted our audits in accordance with auditing standards generally accepted in the United States of
   America; the standards applicable to financial audits contained in Government Auditing Standards, issued
   by the Comptroller General of the United States; and OMB Bulletin No. 07-04. Those standards and OMB
   Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
   whether the consolidated financial statements are free of material misstatement. An audit includes
   consideration of internal control over financial reporting as a basis for designing audit procedures that are
   appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
   the Census Bureau’s internal control over financial reporting. Accordingly, we express no such opinion.

   An audit also includes:

   •       Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
           financial statements;
   •       Assessing the accounting principles used and significant estimates made by management; and
   •       Evaluating the overall consolidated financial statement presentation.
   We believe that our audits provide a reasonable basis for our opinion.

   In planning and performing our fiscal year 2010 audit, we considered the Census Bureau’s internal control
   over financial reporting by obtaining an understanding of the Census Bureau’s internal control, determining
   whether internal controls had been placed in operation, assessing control risk, and performing tests of
   controls as a basis for designing our auditing procedures for the purpose of expressing our opinion on the
   consolidated financial statements, but not for the purpose of expressing an opinion on the effectiveness of
   the Census Bureau’s internal control over financial reporting. Accordingly, we do not express an opinion
   on the effectiveness of the Census Bureau’s internal control over financial reporting. We did not test all
   internal controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial
   Integrity Act of 1982.

   As part of obtaining reasonable assurance about whether the Census Bureau’s fiscal year 2010 consolidated
   financial statements are free of material misstatement, we performed tests of the Census Bureau’s
   compliance with certain provisions of laws, regulations, and contracts, noncompliance with which could
   have a direct and material effect on the determination of the consolidated financial statement amounts, and
   certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests
   of compliance to the provisions described in the preceding sentence, and we did not test compliance with
   all laws, regulations, and contracts applicable to the Census Bureau. However, providing an opinion on

U.S. Census Bureau   	                                                FY 2010 Performance and Accountability Report 67
independent auditors’ reporT




  U.S. Census Bureau
  November 9, 2010
  Page 4 of 4




  compliance with laws, regulations, and contracts was not an objective of our audit and, accordingly, we do
  not express such an opinion.

                                      ______________________________

  This report is intended solely for the information and use of the Census Bureau management, the U.S.
  Department of Commerce management, the U.S. Department of Commerce Office of Inspector General,
  OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and
  should not be used by anyone other than these specified parties.




  November 9, 2010




68 FY 2010 Performance and Accountability Report	                                                  U.S. Census Bureau
Appendixes




                                                               Greg Biffle (right) drove the 2010 Census-sponsored
                                                               No. 16 Ford Fusion in the three Sprint Cup Series races
                                                               in March.




The 2010 Census Portrait of America Road Tour national vehicle sits in New York
City’s Times Square on January 4, ready to begin its cross-country journey to promote
participation in the 2010 Census. The road tour was part of the largest civic outreach
and awareness campaign in U.S. history—with 13 vehicles stopping and exhibiting at
more than 800 events nationwide and traveling for a total of 1,547 days and more than
150,000 miles across the country to provide the public with an educational, engaging,
and interactive experience that brought the 2010 Census to life.




U.S. Census Bureau                                                 FY 2010 Performance and Accountability Report 69
                                                                                                                         Appendix A


APPENDIX A.
PERFORMANCE AND RESOURCE TABLES

PERFORMANCE OUTCOME:
Provide benchmark measures of the U.S. population, economy, and
governments
(ESA/CENSUS)


                                            PERFORMANCE OUTCOME RESOURCES
                          FY 2005              FY 2006          FY 2007            FY 2008             FY 2009            FY 2010
                            Actual               Actual           Actual             Actual              Actual             Actual
 Funding                  $1,013.6             $1,078.9         $1,173.0             $917.9            $2,873.8           $5,704.9
 FTE                          8,433              8,778             8,418              5,979              20,007             87,418
 In FY 2008, the Census Bureau split the outcome, “Meet the needs of policymakers, businesses, nonprofit organizations, and
 the public for current and benchmark measures of the U.S. population, economy, and governments,” into this outcome and the
 performance outcome, “Provide current measures of the U.S. population, economy, and governments.” Funds for the years prior
 to FY 2008 are shown in this outcome and reflect both outcomes. Obligations differ from amounts shown in the Statement of
 Budgetary Resources because they do not include Expired and the Working Capital Funds.



 MEASURE: Correct street features in the TIGER® (geographic) database (number of counties completed) to more effectively
 support Census Bureau censuses and surveys, facilitate the geographic partnerships between federal, state, local, and tribal
 governments, and support the E-Government initiative in the President's Management Agenda.
 Year                                 Status         Actual                                   Target
 FY 2010                              Exceeded       50.87 percent response rate              Increase TIGER update submissions
                                                                                              electronically by 10 percent
 Performance was not met because:


 Strategies for improvement:


 Year                                 Status         Historical Results                       Historical Target
 FY 2009                              Met            Completed updates to eligible            Completed updates to eligible
                                                     counties in the United States, Puerto    counties in the United States, Puerto
                                                     Rico, and Island Areas                   Rico, and Island Areas
 FY 2008                              Met            320                                      320
 FY 2007                              Met            737                                      690
 FY 2006                              Met            700                                      700
 FY 2005                              Met            623                                      610




U.S. Census Bureau                                                             FY 2010 Performance and Accountability Report 71
APPENDIX A


MEASURE: Complete key activities for cyclical census programs on time to support effective decision-making by policymakers,
businesses, and the public and meet constitutional and legislative mandates.
Year                               Status        Actual                                  Target
FY 2010                            Met           93 percent of key activities            At least 90 percent of key activities
                                                 completed on schedule                   completed on schedule
Performance was not met because:


Strategies for improvement:


Year                               Status        Historical Results                      Historical Target
FY 2009                            Met           At least 92 percent of key activities   At least 90 percent of key activities
                                                 completed on time                       completed on schedule
FY 2008                            Not Met       Some of the planned dress rehearsal     At least 90 percent of key prep
                                                 activities were cancelled               activities completed on time
FY 2007                            Met           >90 percent of key prep activities      At least 90 percent of key prep
                                                 completed on time                       activities completed on time
FY 2006                            Met           100 percent of activities completed     At least 90 percent of key prep
                                                 on time                                 activities completed on time
FY 2005                            Met           Activities completed on time            Various activities with different dates



MEASURE: Meet or exceed the overall federal score of customer satisfaction on the E-Government American Customer
Satisfaction Index (ACSI).
Year                              Status         Actual                                  Target
FY 2010                           Not Met        Census Score: 69                        Meet or exceed the overall federal
                                                                                         score of 74
Performance was not met because: First time visitors who enter Web sites containing a wealth of information,
may not be familiar with the data available and tend to experience more challenges finding the information
they seek.
Strategies for improvement: In October 2009 the Census Bureau launched a newly designed Web site and is
continuing its efforts to improve the navigation and functionality components of the system.

Year                              Status         Historical Results                      Historical Target
FY 2009                           Not Met        68.0                                    Meet or exceed overall federal score
                                                                                         of 75.2
FY 2008                           Not Met        66.0                                    73.9
FY 2007                           Met            74.0                                    71.0
FY 2006                           Met            72.0                                    71.3
FY 2005                           Met            73.0                                    73.0
This measure applies to the second outcome as well.




72 FY 2010 Performance and Accountability Report	                                                                U.S. Census Bureau
                                                                                                                      Appendix A


PERFORMANCE OUTCOME:
Provide current measures of the U.S. population, economy, and
governments (ESA/CENSUS)


                                             PERFORMANCE OUTCOME RESOURCES
                                             FY 2005         FY 2006         FY 2007        FY 2008      FY 2009        FY 2010
                                               Actual          Actual          Actual         Actual       Actual         Actual
 Funding                                         New              New             New        $703.1        $715.9         $733.1
 FTE                                             New              New             New         5,979         6,231           6,187
 In FY 2008, Census Bureau split the outcome, “Meet the needs of policymakers, businesses, nonprofit organizations, and the
 public for current and benchmark measures of the U.S. population, economy, and governments,” into this outcome and the
 performance outcome, “Provide current measures of the U.S. population, economy, and governments.” Funds for the years prior
 to FY 2008 are shown in this outcome and reflect both outcomes. Obligations differ from amounts shown in the Statement of
 Budgetary Resources because they do not include Expired and the Working Capital Funds.



 MEASURE: Achieve predetermined collection rates for Census Bureau censuses and surveys in order to provide statistically
 reliable data to support effective decision-making of policymakers, businesses, and the public.
 Year                               Status          Actual                                   Target
 FY 2010                            Met             100 percent of key surveys meet          At least 90 percent of key censuses
                                                    or exceed their predetermined            and surveys meet/exceed collection
                                                    collection rates at planned levels of    rates/levels of reliability
                                                    reliability
 Performance was not met because:


 Strategies for improvement:


 Year                               Status          Historical Results                       Historical Target
 FY 2009                            Met             100 percent of key censuses and          At least 90 percent of key censuses
                                                    surveys met/exceeded collection          and surveys meet/exceed collection
                                                    rates/levels of reliability              rates/levels of reliability
 FY 2008                            Met             Met percentages                          At least 90 percent of key censuses
                                                                                             and surveys meet/exceed collection
                                                                                             rates/levels of reliability
 FY 2007                            Met             Met percentages                          At least 90 percent of key censuses
                                                                                             and surveys meet/exceed collection
                                                                                             rates/levels of reliability
 FY 2006                            Met             Met percentages                          At least 90 percent of key censuses
                                                                                             and surveys meet/exceed collection
                                                                                             rates/levels of reliability
 FY 2005                            Met             Met percentages                          Various percents—see FY 2006 APP




U.S. Census Bureau                                                            FY 2010 Performance and Accountability Report 73
Appendix A


MEASURE: Release data products for key Census Bureau programs on time to support effective decision-making of
policymakers, businesses, and the public.
Year                              Status        Actual                                  Target
FY 2010                           Met           •	 100 percent of economic indica-      •	 100 percent of economic indica-
                                                   tors released on schedule               tors released on schedule
                                                •	 92 percent of other data products    •	 At least 90 percent of other data
                                                   from key censuses and surveys           products from key censuses and
                                                   released on schedule                    surveys released on schedule
Performance was not met because:


Strategies for improvement:


Year                              Status        Historical Results                      Historical Target
FY 2009                           Met           •	 100 percent of economic              •	 100 percent of economic
                                                   indicators released on schedule         Indicators released on schedule
                                                •	 100 percent of other data            •	 At least 90 percent of other data
                                                   products from key surveys               and products from key censuses
                                                   released on schedule                    and surveys released on schedule
FY 2008                           Met           •	 100 percent of economic              •	 100 percent of economic
                                                   indicators released on schedule         indicators released on schedule
                                                •	 >89 percent of key censuses and      •	 At least 90 percent of key
                                                   surveys released on schedule            censuses and surveys released
                                                                                           on schedule
FY 2007                           Met           •	 100 percent of economic              •	 100 percent of economic
                                                   indicators released on schedule         indicators released on schedule
                                                •	 >89 percent of other key             •	 >89 percent of other key
                                                   censuses and surveys released           censuses and surveys released
                                                   on schedule                             on schedule
FY 2006                           Met           •	100 percent of economic indicators    •	 100 percent of economic
                                                  released on schedule                     indicators released on schedule
                                                •	100 percent of other key censuses     •	 >89 percent of other key censuses
                                                  and surveys released on schedule        and surveys released on
                                                                                          schedule
FY 2005                           Met           22 products                             22 products




74 FY 2010 Performance and Accountability Report	                                                               U.S. Census Bureau
                                                                                                          Appendix B


APPENDIX B.
DEFINITION OF PERFORMANCE MEASURES AND
VALIDATION AND VERIFICATION INFORMATION

PERFORMANCE OUTCOME:
Provide benchmark measures of the U.S. population, economy, and governments
(ESA/CENSUS)

Correct street features in the TIGER® (geographic) database (number of counties completed) to more
effectively support Census Bureau censuses and surveys, facilitate the geographic partnerships between
federal, state, local, and tribal governments, and support the E-Government initiative in the President’s
Management Agenda.
It is essential that the Census Bureau correctly locate every street in the MAF/TIGER® system to provide geographic
products and services that meet the accuracy expectations of the 2010 Census field data collection staff, the
Census Bureau’s data product customers, and the needs of the U.S. Geological Survey/The National Map. Many
local and tribal governments that participated in the Census 2000 geographic partnership programs and many
potential customers for MAF/TIGER® geographic products indicated that they would not consider future geographic
partnerships or use without substantial improvements in location accuracy. Investing in the identification and
correct location of new housing units and streets or roads in small towns and rural areas will ensure uniform
address and street coverage in the MAF/TIGER® database and in the Census Bureau’s data products, both for the
American Community Survey (ACS) and the 2010 Census.


 Data Source                      MAF/TIGER® activity schedule
 Frequency                        As scheduled
 Data Storage                     Census Bureau MAF/TIGER® database
 Internal Controls                The Census Bureau compares actual completion dates with scheduled dates
 Data Limitations                 None
 Actions to Be Taken              Continue quarterly reviews of performance data


Complete key activities for cyclical census programs on time to support effective decision-making by
policymakers, businesses, and the public and meet constitutional and legislative mandates.
Due to the cyclical nature of these programs, it is important for the Census Bureau to track annual key activities
that support the programs. The Census Bureau tracks the internal activities that are considered to be the most
important in meeting the long-term goals of the cyclical census programs.


 Data Source                      Activity schedules kept by each of the cyclical census programs
 Frequency                        Ongoing, based on activity schedules
 Data Storage                     The Census Bureau program offices maintain activity schedules and performance
                                  data
 Internal Controls                The Census Bureau compares actual completion dates with scheduled dates
                                  Performance data is reviewed quarterly
 Data Limitations                 None
 Actions to Be Taken              Continue quarterly reviews of performance data




U.S. Census Bureau                                                    FY 2010 Performance and Accountability Report 75
Appendix B


Meet or exceed the overall federal score of customer satisfaction on the E-Government American Customer
Satisfaction Index (ACSI).
The ACSI is a survey conducted since 1994 by the University of Michigan in cooperation with other groups.
It tracks trends in customer satisfaction and provides benchmarks that can be compared across industries
and between the public and private sectors. FY 2008 begins the benchmarking year for the Census Bureau’s
participation in the E-Government ACSI. Based on responses to the former annual ACSI and the Census Bureau’s
Corporate Annual Survey of Web Site Visitors, the Census Bureau anticipates meeting or exceeding the average
federal government customer satisfaction levels and will identify and make iterative adjustments to processes or
custom questions asked to focus on improving overall quality and satisfaction.


Data Source                       Census Bureau data users at State Data Centers, Business Information Data
                                  Centers, Census Information Centers, and Regional Federal Depository Libraries
Frequency                         Annually
Data Storage                      Primary storage is at the University of Michigan
Internal Controls                 Data are collected electronically and cross-tabulated. Interviewers are
                                  continuously monitored, with supervisors randomly listening in on interviews
Data Limitations                  Sample size determines the limits of statements that can be made based on the
                                  data. All Census Bureau–related ACSI reports are careful to report confidence
                                  intervals
Actions to Be Taken               Continue quarterly reviews of performance data


PERFORMANCE OUTCOME:
Provide current measures of the U.S. population, economy, and governments
(ESA/CENSUS)

Achieve predetermined collection rates for Census Bureau censuses and surveys in order to provide
statistically reliable data to support effective decision-making of policymakers, businesses, and the public.
This measure focuses on maintaining a high level of response for both demographic and economic surveys to
ensure that information from Census Bureau surveys and censuses are always reliable and widely accepted by
customers over the long term. Reliability of Census Bureau statistics is essential to enhance the supply of key
economic and demographic data to support effective decision-making of policymakers, businesses, the American
public, and others.


Data Source                       Census Bureau surveys are the initial collection source. Internal control files and
                                  systems are the source of the response-rate data
Frequency                         Response rates are tied to data collection. Frequency varies by survey
Data Storage                      All data are stored in Census Bureau databases and are published in public press
                                  releases
Internal Controls                 Quality assurance analyses, Automated Data Processing (ADP) routines, and peer
                                  reviews
Data Limitations                  Data that are released must adhere to Title 13 requirements to protect
                                  respondents’ confidentiality
Actions to Be Taken               Continue quarterly reviews of performance data




76 FY 2010 Performance and Accountability Report	                                                        U.S. Census Bureau
                                                                                                          Appendix B


Release data products for key Census Bureau programs on time to support effective decision-making of
policymakers, businesses, and the public.
It is essential that the Census Bureau release data products on schedule to enhance the supply of key economic
and demographic data to support effective decision-making of policymakers, businesses, and the American
public. This measure focuses on two parts: economic indicators and other key surveys and reports. OMB Statistical
Directive No. 3 requires that the Census Bureau release principal economic indicator data within prescribed time
periods. Thus, the impact of not meeting release dates for the economic indicators is much more serious.


 Data Source                     Actual data releases by Census Bureau programs
 Frequency                       The frequency of data releases varies. Release dates are often published in
                                 advance
 Data Storage                    Data release information is stored in Census Bureau systems and public
                                 data releases
 Internal Controls               Performance data are verified by comparing actual release dates with scheduled
                                 release dates. Methodological standards for surveys are publicly reported
 Data Limitations                Data that are released must adhere to Title 13 requirements to protect
                                 respondents’ confidentiality
 Actions to Be Taken             Continue quarterly reviews of performance data




U.S. Census Bureau                                                  FY 2010 Performance and Accountability Report 77
Appendix C


APPENDIX C.
IMPROPER PAYMENTS INFORMATION ACT (IPIA) REPORTING DETAILS
IPIA was enacted to provide for estimates and reports of improper payments by federal agencies. The act requires
that federal agencies estimate improper payments and report on actions to reduce them. A review of all programs
and activities that the Census Bureau administers is required annually to assist in identifying and reporting
improper payments. The Census Bureau has not identified any significant problems with improper payments;
however, the Census Bureau recognizes the importance of maintaining adequate internal controls to ensure proper
payments, and the Census Bureau’s commitment to the continuous improvement in the overall disbursement
management process remains very strong. Each of the Census Bureau’s payment offices has implemented
procedures to detect and prevent improper payments.

I. Risk Assessment(s)
Employees such as contracting officer representatives (COR), administrative offices staff, receiving dock staff, or
those at other points of receipt who accept delivery of goods and services must document receipt at the time
of delivery of the goods or completion of services and, in turn, forward this information to the Census Bureau’s
Finance Division by the fifth business day after receipt or acceptance of the goods or services.

When goods procured by three-way match Purchase Orders are received (ones used to order supplies,
equipment, and services on a nonrecurring basis), divisions and offices should access the Administrative and
Customer Services Division’s (ACSD’s) Automated Property Management System (APMS) to generate a Form
BC-1766, Receiving Report. For goods acquired through the General Services Administration’s Federal Standard
Requisitioning and Issue Procedure (FEDSTRIP), divisions and offices must prepare Form CD-391, Receiving Report.
Access to APMS can be obtained by contacting the Property Records and Transportation Management Branch in
ACSD. The procedures for accessing and using this system are documented in the APMS Users Guide.

For services acquired by contract, the current process requires the COR to validate receipt by certifying a copy of
the invoice submitted by the vendor for the services provided. For services acquired by two-way match Purchase
Orders (ones generally used for recurring payments), divisions and offices must prepare Form BC-1891, Invoice
Cost Allocation Receiving Report.

For a certification to be valid, the Census Bureau program offices must include the following information on the
receiving report or certified copy of the invoice:

•• Contract, delivery order, task, purchase order, or other authorization number.

•• Description of the goods or services that reference the line item on the source document (with the line item
   numbers and dollar amount for each specific line on the receiving report listed).

•• Quantities received, if applicable.

•• Date(s) the goods or services were received and accepted.

•• Signature, or electronic alternative when supported by appropriate internal controls; printed name; title; phone
   number; and mailing address of the receiving/approving official.

•• Name of the vendor.

•• Date the invoice was received. (This is the responsibility of the office designated in the purchase agreement that
   first receives the invoice.)

The results of the Census Bureau assessments revealed no risk-susceptible programs and demonstrated that,
overall, the Census Bureau has strong internal controls over the disbursement process, the amounts of improper
payments are immaterial, and the risk of improper payments is low.




78 FY 2010 Performance and Accountability Report	                                                       U.S. Census Bureau
                                                                                                           Appendix C


II. Sampling Process
In FYs 2006 through 2009, there have been no Government Accountability Office or Department of Commerce/
Office of Inspector General audits of the Census Bureau’s disbursements processes. During the same period, the
DOC’s Performance and Accountability Report revealed no risk-susceptible programs and no significant improper
payments responsive to OMB Circular No. A-123, Appendix C, Requirements for Effective Measurement and
Remediation of Improper Payments. In 2005, Horn & Associates, Inc., completed a Recovery Audit of 30 folders and
reported no findings. Noting its Improved Financial Performance initiative on the President’s Management Agenda
scorecard submissions, the Census Bureau reported participation with the DOC on its Audit Recovery Program.

III. Corrective Action Plans
To assist Census Bureau programs and activities, staff responsible for payments can refer questions concerning
the validity of a payment to the appropriate offices. They can also obtain guidance concerning management
of disbursements from Census Bureau and DOC budget and finance procedures from several sources, such as
Federal Acquisition Regulations and OMB Circular No. A-11 section titled “Information on Erroneous Payments,” the
Commerce Acquisition Manual (CAM), and the Accounts Payable Procedures Manual. The Census Bureau maintains
policy and procedures manuals (PPMs) concerning disbursements, such as, F-23, Prompt Payment Guidance
(updated February 2009), which discusses how to handle improper invoices, and F-6, Gifts and Bequests, which
discusses under- and overpayment. Other PPM chapters delineate signatory authorities for levels of disbursements.
Administrative offices and officers work with divisions and their staff on financial procedures and processes
for making disbursements. CORs engaged in contract administration receive required training to ensure they
understand their responsibilities to safeguard the government’s assets and funds. CORs receive appointment
letters from the chief acquisition officer, which list their responsibilities, and CORs are encouraged to work closely
with acquisition personnel. Purchase card policy and procedures are available in “DOC Purchase Card Procedures”
outlined in CAM 1313.301. The Travel Management Team interprets the Federal Travel Regulations, DOC and
Census Bureau policy/procedures, and other applicable laws governing official travel. The Finance Division’s Web
page provides links and instructions to staff responsible for making, approving, and recovering payments to help
prevent the likelihood and negative impact of improper payments.




U.S. Census Bureau                                                    FY 2010 Performance and Accountability Report 79
Appendix C


IV. Auditing Effort
                                                     Internal Controls
                                                                                                        Risk Assessment
                                                        Evaluation
                                                                                      Probability                   Risk Level
Risk                                                          Information             of            Impact of       (Low,
Factor Specific Risk Factors to    Control       Control      and Com-    Monitoring/ Improper      Improper        Medium, Risk
#      This Program/Activity       Environ.      Activities   munication Evaluation Payments        Payments        High)      Score
1       Payments are made for    Effective       Effective    Effective   Effective    Rare         Insignificant   Low         1
        services or products not
        received.
2       Payments are not made      Effective     Effective    Effective   Effective    Rare         Insignificant   Low         1
        for services or products
        received.
3       Disbursements made         Effective     Effective    Effective   Effective    Rare         Insignificant   Low         1
        to the vendor for the
        incorrect amount or,
        for example, duplicate
        invoices.
4       Payment is made            Effective     Effective    Effective   Effective    Rare         Insignificant   Low         1
        on unsupported or
        inadequately supported
        claims.
5       Funds used for other       Effective     Effective    Effective   Effective    Rare         Insignificant   Low         1
        than intended purposes
        by participating
        divisions, offices, or
        external bureaus.
        Total Risk Score for All Specific Risk Factors                                                              N/A         5
        Average Risk Score for All Specific Risk Factors (divide above by # of Specific Risk Factors)               N/A         1
        Risk Level for All Specific Risk Factors (Low, Medium, High)                                                Low         N/A


For the table above, Average Risk Score for All Specific Risk Factors converts to Risk Level for All Specific Risk
Factors as follows:

    Average Risk Score of 1.0–1.7 = Risk Level of Low
    Average Risk Score of 1.8–2.2 = Risk Level of Medium
    Average Risk Score of 2.3–3.0 = Risk Level of High

V. Action Plan for Accountability
There is low inherent risk that the following would go undetected: unfunded or unauthorized purchases; mis- or
understated obligations; unpaid invoices; infractions of the Prompt Payment Act; duplicate invoices; or payments
are made for goods and services not received. The work is under control of the government and transactions are
not complex. A number of control risk measures are taken to monitor disbursements. At the activity level program
managers and offices track progress against budgets to ensure accurate and timely control over budget resources.
They use financial management and budget progress and status reporting—for instance, Finance Management,
Other Objects, and Undelivered Order Reports generated from the Commerce Business Systems. Program offices
are staffed with trained CORs (e.g., task managers) and managers who are responsible for monitoring the accuracy
of disbursements. A Finance Division quality control section performs monthly reviews, as does the Travel and
Conference Services Office.

VI. Information Systems Corrective Measures
The Commerce Business System produces a number of reports available to staff and offices to track and check
disbursements. For example, staff and offices receive monthly Financial Management Reports and Other Objects
Reports with which to track disbursements.




80 FY 2010 Performance and Accountability Report	                                                                     U.S. Census Bureau
                                                                                                          Appendix C


The Data Warehouse Budget and Expense Query Application is a tool for the enhanced query and analysis of
budget and expense data. This tool is used to investigate questionable amounts or charges at a transaction level.

The Economic Directorate uses a number of reports to track payments under interagency agreements, for example,
the Reimbursable Project Management Report and Monthly Cost Analysis Report.

VII. Statutory/Regulatory Guidelines
The Census Bureau has not identified any significant barriers to date, but will notify the Office of Management and
Budget and Congress of any barriers that inhibit actions to reduce improper payments if they occur.

VIII. Guidelines to Avoid Improper Payments
•• Limited/controlled access to vendor files and basic vendor information (e.g., name, address, taxpayer
   identification number, business size) is available to financial system users; access to banking information,
   however, is strictly limited by system to certain finance departments.

•• Controlled access to financial system accounts payable screens—authority to create, edit, approve, process, and
   amend payment records­—is limited to certain financial system users. Also, authority to add or revise records in
   the vendor database is limited to the Census Bureau’s Table Maintenance Team within the Finance Division. 	

•• Daily prepayment audit of invoices for accuracy is done and corrective actions taken prior to disbursement,
   thereby preventing improper payments from occurring.

•• The monthly vendor statement for purchase cards is interfaced into the financial system, thereby reducing data
   entry error.




U.S. Census Bureau                                                    FY 2010 Performance and Accountability Report 81
Appendix D


APPENDIX D.
Management Challenges
Each year the Department of Commerce’s Office of Inspector General (OIG) reviews the Department’s and its
component bureaus’ program activities to ensure that the management, financial, and operational activities are
sound and meet the requirements of the Chief Financial Officers (CFO) Act and the Government Performance and
Results Act (GPRA).

The emphasis by the President, the Office of Management and Budget (OMB), and Congress on improved
government accountability underscores the Department’s resolve to enhance transparency within the Department
while promoting improved efficiency and effectiveness. Progress in these endeavors requires strong commitment
from the Department’s senior leadership and staff at all levels.

         THE INSPECTOR GENERAL’S STATEMENT OF MANAGEMENT CHALLENGES

    As FY 2011 begins, advancing economic growth and creating job opportunities remain two of the
    Department of Commerce’s overarching goals. For the upcoming fiscal year, the Department plans to spend
    about $9 billion on a wide range of programs and initiatives to meet these objectives, and the Office of
    Inspector General (OIG) continues to support its efforts through our audits, evaluations, and investigations.
    In late November 2010, we will issue our annual report on Commerce’s top management challenges. The
    purpose of the report is to identify what we consider, from our oversight perspective, the most significant
    management and performance issues facing Commerce in the coming fiscal year.
    In the November 2010 report, we will identify eight management challenges. Several of these challenges
    are longstanding concerns. They include strengthening Department-wide information security, managing
    the cost and technical performance of the National Oceanic and Atmospheric Administration’s (NOAA)
    environmental satellite acquisition programs, and reducing patent and trademark application backlogs. At
    the same time, the Department must address new concerns, such as overseeing the rapid disbursement
    of billions of dollars to stimulate the economy as a result of the American Recovery and Reinvestment
    Act (ARRA) of 2009. We are performing an ongoing body of work, and planning additional efforts, to
    help the Department effectively manage these and other emerging issues. Table 1 compares the FY 2011
    management challenges with those identified in FY 2010.
    Additionally, as required by the Office of Management and Budget (OMB) Circular A-136, our top
    management challenges report from FY 2010 briefly assessed the Department’s progress in addressing the
    challenges identified. This appendix contains a summary of the challenges from FY 2010 along with the
    Department’s response describing the actions it has taken. Our FY 2010 management challenge report is
    available on our website at www.oig.doc.gov.
    The management challenges are not easily resolved; they may require the Department or its operating
    units to invest in new technologies or substantially change such areas as procedures, program activities,
    or organizational culture. To completely address a management challenge typically takes several fiscal
    years. The Department has been proactive in its efforts to address several challenges we have identified
    in previous years. For example, we recognize the commitment of the Secretary and his staff to the Office
    of the Secretary’s restructuring initiatives, including establishing new leadership positions for performance
    management and program evaluation. Additionally, the Secretary recently began a comprehensive review
    of Department-wide acquisition processes to identify ways to strengthen and improve the quality of
    its acquisitions. While these initiatives should help to improve performance accountability, sustained
    leadership attention is needed to ensure desired results are achieved.
    We welcome the opportunity to discuss these challenges and any comments you might have.



                                                                                                   Todd J. Zinser
                                                                                               Inspector General




82 FY 2010 Performance and Accountability Report	                                                       U.S. Census Bureau
                                                                                                             Appendix D


TOP MANAGEMENT CHALLENGES FOR                                While much of the bureau’s plan appears to be on
FY 2010                                                      schedule, the efficiency and accuracy of NRFU are at
                                                             some risk, and final decennial costs remain uncertain.
Challenge 1: Decennial Census: Mitigate Issues               The bureau’s ability to manage NRFU effectively, and
                                                             thus control its cost, hinges on two systems: the paper-
with the 2010 Decennial While Addressing Future
                                                             based operations control system (PBOCS) and the
Census Challenges
                                                             Decennial Applicant, Personnel, and Payroll System
The mission of the 2010 Census—to succeed in count-          (DAPPS). Described by the bureau as the “nerve center”
ing each of the over 300 million people in more than         of its field offices, PBOCS manages enumerator assign-
130 million households in the United States once, only       ments and provides current information on enumerator
once, and in the right place—is a massive undertaking        productivity. DAPPS supports recruiting, applicant, per-
with many moving parts. With a projected life-cycle cost     sonnel, and payroll processing and is therefore also crit-
estimate of $14.7 billion, the bureau must integrate 44      ical to the smooth functioning of NRFU. Both systems
separate operations (with a total of some 9,400 pro-         support smaller early field operations such as those in
gram- and project-level activities).                         rural areas where Census leaves a form for households
                                                             to mail back (known as update/leave), doorstep inter-
U.S. residents have by now received their forms, and the     views occurring in places such as Native American res-
Census Bureau has built an extensive communications          ervations (update/enumerate), and counting residents
campaign and partnership program to encourage a              living in group situations and nontraditional households
prompt and accurate decennial response. The rate at          (group quarters enumeration, service-based enumera-
which responses are returned will be critical in determin-   tion, and enumeration of transitory locations). Both sys-
ing the overall cost of the census. Households that do       tems have experienced problems in testing and, more
not mail back forms will be visited by an enumerator         importantly, during field operations.
during nonresponse follow-up (NRFU) operations. The
most expensive decennial operation, NRFU is now esti-        Census is on a very tight schedule to complete the
mated to cost $2.3 billion. The bureau cannot predict        PBOCS capabilities needed for NRFU and to resolve exist-
with certainty the public’s response rate and thus the       ing problems. Once NRFU begins, the system has no
total number of housing units that will have to be visited   margin for error. Yet PBOCS development and testing
during this phase. Census estimates that costs will          remain behind schedule, and frequent outages and slow
increase by about $85 million for every percentage point     performance are impacting early operations. If not
of addresses that census takers have to visit.               revamped for NRFU, these problems place the schedule




Table 1. Comparison of FY 2011 and FY 2010 Top Management Challenges

                                                                                                           Report
 Challenge                                                                                        FY2011       FY2010
 Department-Wide: Strengthening Information Security                                                  x            x
 NOAA: Development and Acquisition of Environmental Satellite Programs                                x            x
 Department-Wide: Managing Acquisition and Contract Operations1                                       x            x
 ARRA: Enhancing Accountability and Transparency                                                      x            x
 USPTO: Improving the Efficiency of the Patent Office and Mitigating Financial Vulnerabilities        x            x
 NOAA: Protecting Environment while Promoting Fishing Industry                                        x
 Department-Wide: Commerce Headquarters Renovation                                                    x            x
 Census: 2020 Decennial Planning                                                                      x            x
 Census: Mitigate Issues with the 2010 Decennial                                                                    x
 Department-Wide: Centralized Management and Oversight                                                              x
 NOAA: Headquarters Leadership Structure                                                                            x
 Department-Wide: Major Systems Acquisitions                                                                        x
 Department-Wide: Grant and Contract Management Workforce                                                           x

    1
      This FY 2011 challenge combines elements from two FY 2010 challenges: Major
 Systems Acquisitions and Grant and Contract Management Workforce.



U.S. Census Bureau                                                     FY 2010 Performance and Accountability Report 83
Appendix D


and cost of this massive operation at serious risk. As a      implementing controls), assessments (leaving risks
core requirement with a high level of uncertainty late in     inadequately understood), vulnerability remediation
the decennial life cycle, PBOCS is one of the most signifi-   (through required plans of action and milestones), and
cant decennial challenges facing the Department. While        continuous monitoring. In recent years we have
DAPPS also experienced outages and slow performance           increased our efforts to independently assess technical
in early operations, a recent hardware upgrade appears        security controls and have consistently found vulner-
to have significantly improved performance.                   abilities requiring remediation.

To contain decennial costs, better management of cen-         We also found, in an FY 2009 audit, that the Department
sus fieldwork is essential. We found inefficiencies in        needs to improve the development, guidance, and per-
wages, travel, and training during the address canvass-       formance management of its IT security workforce. The
ing operation. Given the significantly larger scale of        Department has taken positive steps in response, includ-
NRFU, Census must have effective internal controls in         ing plans to enhance employee development and training
place and ensure that managers meticulously follow            as well as to require professional certifications for
them during this operation.                                   employees with significant IT security responsibilities.

Calendar year 2010 is also a critical time for the 2020
Census. The bureau must begin to develop its 2020             Challenge 3: NOAA Environmental Satellites:
decennial Census plans even though its workforce is           Effectively Manage Technical, Budgetary, and
already stretched thin by 2010 operations. Our work           Governance Issues Surrounding the Acquisition of
throughout the decade demonstrates that Census needs          NOAA’s Two Environmental Satellite Systems
to identify more cost-effective approaches to the decen-
                                                              NOAA is modernizing its environmental monitoring
nial and seriously consider using such alternatives as
                                                              capabilities, in part by spending an estimated total of
administrative records, the Internet, and targeted
                                                              nearly $20 billion on two critical satellite systems: the
address canvassing. These and other possible
                                                              Joint Polar Satellite System (JPSS) and the Geostationary
approaches could contain costs while increasing accu-
                                                              Operational Environmental Satellite-R Series (GOES-R).
racy and efficiency.
                                                              Both JPSS’ predecessor program, the National Polar-
                                                              orbiting Operational Environmental Satellite System
Challenge 2: IT Security: Continue Enhancing the              (NPOESS), and GOES-R have a history of cost overruns,
Department’s Ability to Defend Its Systems and                schedule delays, and reduced performance capabilities.
Data Against Increasing Cyber Security Threats
                                                              As a result of the fall 2009 decision to significantly
Cyber attacks and other security threats persistently         restructure the NPOESS program, JPSS was established
challenge the Department in ensuring information confi-       as NOAA’s component of the polar environmental satel-
dentiality, integrity, and availability. Commerce contin-     lite system, which is designed to provide global envi-
ues to invest in and otherwise enhance IT security, but       ronmental data to monitor Earth, support the nation’s
more work is needed. The annual Performance and               economy, and protect lives and property. JPSS is
Accountability Report has reported IT security as a           intended to meet a portion of the requirements origi-
material weakness since FY 2001. Based on our FY 2009         nally established under the NPOESS program. NPOESS
FISMA assessments, we again recommended—and the               was managed jointly by NOAA, the National Aeronautics
Department agreed—that the material weakness remain           and Space Administration (NASA), and the Department
until more improvements are made.                             of Defense, with NOAA and Defense equally sharing
                                                              NPOESS costs. Under the restructuring, NOAA/NASA and
We completed two United States Patent and Trademark
                                                              Defense will acquire satellites separately. The life-cycle
Office assessments during this reporting period. While
                                                              cost estimate for JPSS is $11.9 billion.
both revealed improvements, we did not have sufficient
evidence of consistent, effective security practices to       At its 1995 inception, NPOESS planned to purchase six
support removing USPTO’s IT security material weak-           satellites at a $6.5 billion cost, with a first launch in
ness. However, USPTO’s management concluded that IT           2008. But problems with a key sensor raised costs and
security issues had been resolved and did not report the      delayed the date of the first launch, even as the number
material weakness in its FY 2009 Performance and              of satellites in the system was reduced to four. In March
Accountability Report.                                        2009, with estimated life-cycle costs totaling $14 bil-
                                                              lion, the first launch was delayed to 2014 because of
Our evaluations have focused on the Department’s pro-
                                                              continuing sensor problems; the NASA-led NPOESS
cess for planning, implementing, and assessing security
                                                              Preparatory Project (NPP) launch date was also delayed,
controls, including continuous monitoring, for the more
                                                              from 2010 to 2011. NPP was planned as a risk-reduc-
than 300 systems employed by various operating units
                                                              tion effort to test NPOESS’ new instruments in flight, but
(including USPTO), each with its own management
                                                              will now be used operationally as a gap-filler between
structure. We found deficiencies in security planning
                                                              the current NOAA polar-orbiting operational environ-
(including defining security requirements and
                                                              mental satellite and the first JPSS satellite.




84 FY 2010 Performance and Accountability Report	                                                         U.S. Census Bureau
                                                                                                          Appendix D


The transition to the restructured program will continue    particular challenge. Commerce operating units must
into FY 2011. The JPSS program will continue to develop     spend funds appropriately with little time to prepare for
instruments needed to fulfill NOAA’s responsibilities.      the many new and expanded programs, grants, and
The JPSS management structure will be similar to            contracts established under the act.
GOES-R, in which NOAA manages the overall program
with assistance from NASA. NOAA will acquire two JPSS       As of March 31, 2010, the Department had obligated
satellites and will continue climate sensor acquisitions    approximately $2.8 billion and spent approximately
under the NOAA climate program. Defense is evaluating       $890 million. Although spending volumes are relatively
the best approach for maintaining continuity of its polar   low, all funds must be obligated by September 30,
satellites. It is critical that NOAA and Defense imple-     2010. The need to distribute funds quickly to communi-
ment their satellite programs on schedule to reduce the     ties and businesses increases the risks of fraud, waste,
risk of gaps in coverage.                                   and abuse in both Recovery Act-funded activities and
                                                            those Commerce operations with more traditional fund-
Budget increases, capability reductions, and delays have    ing mechanisms. Recovery Act operating units need suf-
also plagued the GOES-R program. The projected cost         ficient resources to ensure that programs deliver as
has increased from $6.2 billion to $7.7 billion; a major    intended, while providing oversight to guard against
sensor was removed; the number of satellites to be pur-     misuse of funds.
chased was reduced from four to two; and the launch
readiness dates for the first two satellites have slipped   The ARRA substantially increases the Department’s con-
by 6 months to October 2015 and February 2017. The          tracting and grants workload, particularly at NIST and
GOES-R system is intended to offer an uninterrupted         NOAA, whose grants and contracts offices must manage
flow of high-quality data for short-range weather fore-     not only the more than $1.4 billion they received under
casting and warning, as well as provide climate research    the Recovery Act, but the $4.7-billion BTOP program as
data through 2028. Working with NASA, NOAA is               well. NTIA relies on NIST and NOAA for grants adminis-
responsible for managing the entire program and for         tration because it does not have its own staff and sys-
acquiring the ground segment, which is used to control      tems for this purpose. Such increases place added pres-
satellite operations and to generate and distribute         sure on these operating units to hire and retain quali-
instrument data products.                                   fied personnel.

According to program documentation, overall GOES-R          The ARRA provided a relatively significant funding
program acquisition is on track and within budget to        increase for NIST and NOAA construction projects. To
meet the revised launch schedule. However, any further      complete them successfully, NIST and NOAA need to
delays in the satellite’s launch readiness will increase    dedicate construction managers across ARRA grants,
NOAA’s risk of not meeting its requirement to have an       contracts, and regular appropriation-funded projects.
on-orbit spare and two operational GOES satellites avail-   Our oversight will focus on this high-risk area, including
able to monitor the Pacific and Atlantic basins in 2015.    assessments of compliance with contract and grant
                                                            requirements and project results.
Both the JPSS and GOES-R programs will continue to
require close oversight to minimize further disruption      We recently reviewed the adequacy of key IT and opera-
to programs and prevent any satellite coverage gaps,        tional controls of the primary (source) grants, contracts,
which could compromise the United States’ ability to        and/or financial systems for Census, the Economic
forecast weather and monitor climate. Such a compro-        Development Administration (EDA), NIST, NOAA, and
mise would have serious consequences for the nation’s       NTIA to determine whether their controls ensure that
safety and security.                                        the Commerce reports posted on Recovery.gov are com-
                                                            plete, accurate, and reliable. Generally, the Commerce
                                                            systems we reviewed had adequate data input/edit con-
Challenge 4: American Recovery and Reinvestment             trols. However, the lack of automated data transmission
Act: Meet the Challenges of Accountability and              or interfaces from the grants systems to Commerce’s
Transparency with Effective Oversight of Program            financial system could lead to errors.
Performance, Compliance, Spending, and Reporting
                                                            Without additional automation, it will be more difficult
The Department continues to implement programs              for Commerce operating units to effectively manage
under the Recovery Act, which provided Commerce with        their own reporting with the increased volume of grants
$7.9 billion. The OIG Recovery Act oversight priorities     and contracts. Ensuring complete and accurate recipient
include agency and recipient reporting, the Broadband       reporting will also be difficult. Additional automation
Technology Opportunities Program (BTOP), and National       would add reporting process efficiencies and would
Institute of Standards and Technology (NIST) and NOAA       decrease the risks of reporting errors and delays.
construction contracts and grants.
                                                            We identified several concerns in the BTOP pre-award
The sheer amount of ARRA money received by                  process and expressed concern with whether NTIA has
Commerce, coupled with the act’s unique requirements,       identified and obtained needed resources to execute a
makes ensuring appropriate spending—while also pro-         grant program of BTOP’s magnitude in the Recovery
viding economic stimulus as quickly as possible—a           Act’s timeframe. According to the act, BTOP must spend

U.S. Census Bureau                                                    FY 2010 Performance and Accountability Report 85
Appendix D


all of its $4.7 billion in grant funding by September 30,     curtailed or suspended overtime and training. USPTO
2010. Over the next 6 months, NTIA must address sev-          currently projects a FY 2010 surplus, but does not have
eral challenges as it concurrently monitors first-round       authority to spend above its legislatively mandated
grant awards and issues new awards. Challenges                appropriation ceiling.
include (1) coordinating with other federal organiza-
tions supporting contract and grants management and           Potential fee shortfalls and fluctuations introduce inher-
(2) overseeing contractors implementing BTOP. In the          ent instability to the funding structure. This unstable
next semiannual period, we will issue a report detailing      structure increases the risk to USTPO’s ability to operate
our concerns with BTOP’s program management and               effectively in current and future years, and its capacity
pre-award process.                                            to ensure that America’s intellectual property system
                                                              encourages investment in innovation and contributes to
                                                              a strong global economy. More immediately, USTPO may
Challenge 5: United States Patent and Trademark               not be able to process as many patent applications,
Office: Address the Patent Office’s Resource and              which will add to the backlog instead of working
Process Issues                                                toward reducing it. In effect, fewer maintenance fees
With an enacted budget of $1.7 billion in FY 2010 and a       will be available to collect in the future because fewer
$2 billion FY 2011 budget request for patent opera-           patents are being issued today.
tions, USPTO continues to struggle with increasing pat-       The Under Secretary of Commerce for Intellectual
ent backlogs and the need to improve patent examina-          Property, who is also the Director of USPTO, has publicly
tion efficiency and quality.                                  acknowledged these and other difficulties. A 5-year plan
Since FY 2000, the number of patent examiners has             in the President’s FY 2011 budget sets forth bold goals,
more than doubled, from 2,900 to 6,200. But the length        such as reducing the time it takes for initial patent
of time to process a patent has increased 40 percent          application review to 10 months (from the present 26
from 25 to 35 months. Further, the backlog of applica-        months) by FY 2013. Similarly, by FY 2014, USPTO’s
tions awaiting review increased 139 percent, from             goal to decide a patent application is 20 months, down
308,000 to 736,000.                                           from the present 35.

Over the years, USTPO has increased the number of pat-        Other Issues Requiring Significant
ent examiners to address the growing backlog; how-            Management Attention
ever, simply adding to the workforce will not suffice.
USPTO must consider how to reform and reengineer              Centralized Management and Oversight It will be a
various components of the patent application process          complex, but necessary, organizational challenge for the
and must update its IT systems to ensure timely and           Department to establish consistent internal operations to
high-quality application review.                              support all of its operating units. However, by doing so,
                                                              it will be better positioned to provide efficient and reli-
USPTO must also address funding mechanisms and fee            able support to the Secretary’s priorities. The Department
structure challenges. USPTO is now funded entirely by         needs to continue its efforts to centralize management
application, maintenance, and other fees paid by patent       and oversight in order to make the whole organization
and trademark applicants and owners. Congress sets            more efficient, consistent, and productive. The
many of the fees legislatively and establishes a ceiling,     Department’s operating units have long-standing and
through the appropriations process, for the maximum           independent business models, cultures, and practices.
amount of fees USTPO can spend in a given year. For FY        This decentralized structure has created obstacles to
2011, the Administration proposes a 15-percent increase       Department efforts to integrate and administer internal
in certain patent fees to generate additional revenue to      processes like financial services, human resources, grant
cover operating expenses. It also proposes that USTPO         and contract management, and major acquisitions.
have authority to set fees and to establish an operating
reserve to manage operations on a multiyear basis.            For example, the administrative management structure
                                                              of the Department gives its Chief Information Officer
In November 2008, our Top Management Challenges               (CIO) little authority over the IT security operations of
report suggested that USTPO’s unique financing struc-         Commerce’s operating units, making the cyber security
ture could become increasingly risky. Subsequent down-        challenge even more difficult to manage. In addition,
turns in the U.S. and global economies quickly showed         prior to the ARRA, the Department awarded an average
the structure’s vulnerabilities. In the President’s FY 2009   of $1.5 billion in grants to over 1,600 recipients annu-
budget, USPTO estimated that it would collect over $1.8       ally and approximately $2 billion in contracts to nearly
billion in patent fees. However, by the end of that year,     6,000 contractors annually. Yet the Department’s Office
patent fee collections totaled just over $1.6 billion.        of Acquisition Management has similarly limited author-
Multiple factors contributed to the difference, including     ity over the various operating units’ grants and procure-
a reduction in the number of patent applications filed        ment offices, resulting in inconsistent approaches to
and a decline in maintenance fees collected for existing      grant and contract management across the Department
patents. To align expenses with actual patent fee collec-     and adding to the difficulty in overseeing the effective-
tions, USTPO deferred hiring patent examiners and             ness of these operations and programs.

86 FY 2010 Performance and Accountability Report	                                                          U.S. Census Bureau
                                                                                                          Appendix D


Efforts to achieve greater consistency have been slow.      Based on our survey, the grants workforce for the five
To illustrate, grants are managed by three of the           Commerce operating units receiving Recovery Act fund-
Department’s seven grant-making agencies, which             ing totaled over 800 employees. This includes grant offi-
cross-service the other grant agencies using three dif-     cers, grants program managers, and grants specialists.
ferent IT systems. The Department has been working
since 2003 to migrate all Department grants manage-         Despite these numbers, however, a serious shortage of
ment operations to NOAA’s Grants Online system, but         skilled, specially trained staff hampers the Department’s
this effort is not projected to be completed until 2011.    ability to appropriately issue and oversee grants and
                                                            contracts. To ensure that grants and contracts are
Major Systems Acquisition In a related challenge, the       issued effectively and funds are properly spent, the
Department and its operating units must develop effec-      Department must build up the size and skill of this
tive processes for planning, managing, and overseeing       workforce and improve its oversight processes.
major system acquisitions. In FY 2010, the Department
plans to spend $3 billion on IT investments (excluding      NOAA Headquarters Leadership Structure NOAA
grants). The lack of cohesive policies and procedures       continues to face the challenge of carrying out its multi-
for program and project management and oversight has        faceted mission to understand and predict changes in
contributed to many of these acquisitions—such as the       Earth’s environment and to conserve and manage coastal
decennial handheld computers, as well as the NPOESS         and marine resources to meet our nation’s economic,
and GOES-R environmental satellite programs—becom-          environmental, and recreational needs. NOAA is realign-
ing mired in cost overruns and developmental delays.        ing its headquarters leadership structure to streamline
This weakness also leaves the Department without ade-       decision making and provide greater policy-level atten-
quate visibility into progress and risks on major system    tion to day-to-day management and oversight of its pro-
acquisitions, which results in costly delays in identify-   grams. The realignment is intended to provide additional
ing and correcting problems.                                strategic guidance and leadership direction for NOAA’s
                                                            stewardship responsibilities, including fisheries.
The Department has not been successful in updating its
policies and oversight approach for major systems           One of the key mission components is management,
acquisition. The effort was begun in 2006 in response       research, and services related to the protection and
                                                            rational use of living marine resources. Our 2008 Top
to OIG and GAO recommendations, and while some
                                                            Management Challenges report discussed NOAA’s need
improvements in Departmental oversight have been
                                                            to balance conservation and commercial fishing. Over
made, formal policies and governance have yet to be
                                                            the past 18 months, we have issued several reports that
established. The Deputy Secretary has recently con-
                                                            demonstrate, in particular, the difficulty of achieving
vened a steering committee to develop a Department-
                                                            this balance. In a 2009 report, we evaluated a series
wide major investment oversight policy. Developing for-
                                                            of issues regarding the work and scientific methods of
mal, unified policies and procedures for complicated
                                                            the National Marine Fisheries Service’s (NMFS) Northeast
acquisitions will ultimately save time, money, and effort
                                                            Fisheries Science Center. In 2010, we issued three reports
in all of the Department’s operating units. The
                                                            on the programs and operations of the Office of Law
Department must exercise effective oversight to ensure      Enforcement within NMFS and NOAA’s Office of General
system acquisitions are adequately planned and con-         Counsel for Enforcement and Litigation.
ducted according to best practices, and that they meet
their cost, schedule and performance goals.                 Department Headquarters Renovation The
                                                            Department’s headquarters, the General Services
Contracts and Grants Management Workforce                   Administration (GSA)-owned Herbert C. Hoover Building
Sufficient contracts and grants management workforce        in Washington, D.C., is undergoing an extensive renova-
staffing has been a long-standing issue for the             tion. The renovation will take about 13 years and is
Department. Now, primarily as a result of the ARRA, the     estimated to cost almost $960 million. The project is
Department and its operating units issue more grants        being funded mostly by GSA and the Recovery Act.
and contracts than ever.                                    Because of its scale, the renovation has the potential to
According to Department data, more than 1,500               disrupt Commerce operations and affect its workforce.
Commerce employees hold certifications in various           Accordingly, the Department has a primary interest in
acquisition positions. While the Department does not        ensuring that the renovation is completed on time,
track the number of grants personnel, we recently con-      within budget, and free of fraud. To meet this goal,
ducted a survey of the sufficiency and qualifications of    Commerce and GSA need to provide comprehensive
the Recovery Act acquisition and grants workforce.          oversight throughout the project’s life cycle.




U.S. Census Bureau                                                    FY 2010 Performance and Accountability Report 87
Appendix D


                 U.S. Census Bureau’s Statement on Actions Taken to Address the FY 2010
                       Management Challenge Related to the 2010 Decennial Census


The Paper-Based Operations Control System (PBOCS) received daily executive-level attention and review via the
Application Readiness and Infrastructure Stability group as well as constant attention from the development team
and technical contractors. In April, we implemented a number of fixes focusing on system stability with the help of
high-level technical engineers from the vendors whose hardware and software comprise the PBOCS. We also devel-
oped and implemented a contingency system outside of the PBOCS to track the shipping of questionnaires from
the Local Census Offices (LCOs) to the Paper Data Capture Centers.

Since late May, the PBOCS was generally stable and highly productive for Nonresponse Followup (NRFU), NRFU
Re-interview, and the Vacant Delete Check (VDC) Operation. We checked-in and data captured a total of more than
165 million questionnaires. The PBOCS Vacant Delete Check software was successfully used during field opera-
tions. VDC material printing and assignment preparation went smoothly, with many offices completing material
printing on the first day. VDC production completed over 8.7 million VDC cases.

On June 18, after careful consideration of the risks and costs, the decision was made to move Field Verification (FV)
to the contingency application developed in parallel with PBOCS. The contingency application was built on the con-
trol system that supported the Census Coverage Measurement (CCM) Independent Listing (IL) operation and made
use of specific modules of the Census 2000 Operations Control System that supported the Field Verification. This
decision allowed PBOCS developers to concentrate on VDC. The FV contingency was used successfully for the field
operation.

Though the PBOCS system fell short in some areas, we completed the NRFU operation on time and under budget.
Additionally, initial quality indicators from the reinterview program were all positive compared to Census 2000. We
also would like to note that PBOCS was used quite successfully to assign and manage the work for a number of
operations earlier this year: Enumeration of Remote Alaska, Group Quarters Advance Visit, Group Quarters
Enumeration, Update/Leave, and Update/Enumerate. PBOCS reached a state of stability that allowed us to complete
2010 field operations successfully.




88 FY 2010 Performance and Accountability Report	                                                      U.S. Census Bureau
                                                                                                       Appendix E


APPENDIX E.
STAKEHOLDERS AND CROSSCUTTING PROGRAMS
The Census Bureau has numerous crosscutting programs involving multiple bureaus: other federal, state, and local
agencies; foreign governments; and private enterprise. Federal programs dealing with economic and technological
development, international trade, and demographic and economic statistics play a major role in advancing the
welfare of all Americans. The Census Bureau continues to work with other government agencies in furthering
efforts in these areas of importance to the American public. Crosscutting programs include the following federal,
state, and local agencies:


                                 OTHER FEDERAL AGENCIES AND ORGANIZATIONS
 Department of Defense                                   Bureau of Labor Statistics
 Department of Energy                                    Council of Economic Advisors
 Department of Justice                                   Agency for International Development
 Department of State                                     Federal Reserve Board
 Department of Treasury                                  Bureau of Transportation Statistics
 Department of Labor                                     National Institute of Health
 Department of Housing and Urban Development             Federal Emergency Management Agency/
                                                           Homeland Security
 Department of Agriculture                               National Science Foundation
 Department of Transportation                            U.S. Postal Service
 Department of Education                                 Federal Bureau of Investigation
 Department of Health and Human Services                 Agency for Health Care Research and Quality
 Department of Homeland Security                         Federal Deposit and Insurance Corporation
 Environmental Protection Agency                         National Academy of Science
 Small Business Administration                           State Data Centers
 National Imagery and Mapping Agency                     Federal Geographic Data Committee
 U.S. Geological Survey                                  Interagency Council on Statistical Policy


Note: This is not an all-inclusive listing.




U.S. Census Bureau                                                 FY 2010 Performance and Accountability Report 89
Appendix F


Appendix F.
Summary of Financial Statement Audit and Management Assurance
Presented below is a summary of financial statement audit and management assurances for FY 2009 for the
Census Bureau as a component of the Department of Commerce. Table 1 relates to the Census Bureau’s FY 2009
financial statement audit, which resulted in an unqualified opinion with no material weaknesses. Table 2 presents
the number of material weaknesses reported by the Census Bureau under Section 2 of the Federal Manager’s
Financial Integrity Act (FMFIA)—either with regard to internal controls over operations or financial reporting—and
Section 4, which relates to internal controls over financial management systems; as well as the Census Bureau’s
Compliance with the Federal Financial Management Improvement Act (FFMIA) at department level.

Table 1. Summary of Financial Statement Audit


 •	 Audit Opinion:	     Unqualified
 •	 Restatement:	       No
                                      Beginning
   Material Weaknesses                 Balance          New   Resolved   Consolidated          Ending Balance
 No Material Weaknesses                  0               0       0             0                        0
 Total Material Weaknesses               0               0       0             0                        0


 Table 2. Summary of Management Assurances

 EFFECTIVENESS OF INTERNAL CONTROL OVER FINANCIAL REPORTING (FMFIA § 2)
 Statement of Assurance:         Unqualified
                                      Beginning                                                              Ending
 Material Weaknesses                   Balance          New   Resolved   Consolidated      Reassessed       Balance
 No Material Weaknesses                  0               0       0             0               0               0
 Total Material Weaknesses               0               0       0             0               0               0
 EFFECTIVENESS OF INTERNAL CONTROL OVER OPERATIONS (FMFIA § 2)
 Statement of Assurance:      Unqualified
                                      Beginning                                                             Ending
 Material Weaknesses                   Balance          New   Resolved   Consolidated      Reassessed       Balance
 IT Certification and
 Accreditation                           0               0       0             0               0               0
 Total Material Weaknesses               0               0       0             0               0               0
 CONFORMANCE WITH FINANCIAL MANAGEMENT SYSTEM REQUIREMENTS (FMFIA § 4)
 Statement of Assurance:      Systems conform with financial management system requirements
                                      Beginning                                                             Ending
 Non-Conformances                      Balance          New   Resolved   Consolidated      Reassessed       Balance
 No Non-Conforming Issues                0               0       0             0               0               0
 Total Non-Conformances                  0               0       0             0               0               0
 COMPLIANCE WITH FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT (FFMIA)
                                               AGENCY                              AUDITOR
 Overall Substantial Compliance                 Yes                                  Yes
 1. System Requirements                                                  Yes
 2. Accounting Standards                                                 Yes
 3. USSGL at Transaction Level                                           Yes




90 FY 2010 Performance and Accountability Report	                                                       U.S. Census Bureau
                                                                                                       Appendix G


APPENDIX G. List of Key Acronyms
 ABBREVIATION        TITLE
 ACS                 American Community Survey
 ACSI                American Customer Satisfaction Index
 APMS                Automated Property Management Systems
 APP                 Annual Performance Plan
 ARRA                American Recovery and Reinvestment Act
 ASA                 American Statistical Association
 BAS                 Boundary Annexation Survey
 BEA                 Bureau of Economic Analysis
 CAM                 Commerce Acquisition Manual
 CBP                 County Business Patterns
 CBS                 Commerce Business Systems
 CCR                 Central Contractor Regulations
 CFO                 Chief Financial Officer
 CORs                Contracting Officer’s Representatives
 COTS                Commercial Off-The-Shelf
 CPS                 Current Population Survey
 CSAM                Cyber Security Assessment Methodology
 CSRS                Civil Service Retirement System
 DAPPS               Decennial Applicant Personnel and Payroll System
 DOC                 U.S. Department of Commerce
 DOL                 U.S. Department of Labor
 DR                  Dress Rehearsal
 DRIS                Decennial Response Integrated System
 DUNS                Data Universal Numbering System
 EDA                 Economic Development Administration
 EFT                 Electronic Funds Transfer
 EHC                 Event History Calendar
 ESA                 Economics and Statistics Administration
 FAR                 Federal Accounting Regulations
 FASAB               Federal Accounting Standards Advisory Board
 FDCA                Field Data Collection Automation
 FECA                Federal Employees’ Compensation Act
 FEDSTRIP            Federal Standard Requisitioning and Issue Procedure
 FERS                Federal Employees’ Retirement System
 FFMIA               Federal Financial Management Improvement Act of 1996
 FMFIA               Federal Managers’ Financial Integrity Act of 1982
 FTE                 Full-Time Equivalent


U.S. Census Bureau                                                  FY 2010 Performance and Accountability Report 91
Appendix G


 ABBREVIATION         TITLE
 FY                    Fiscal Year
 GAAP                  Generally Accepted Accounting Principles
 GAO                   Government Accountability Office
 GDP                   Gross Domestic Product
 GPRA                  Government Performance and Results Act of 1993
 GPS                   Global Positioning System
 GSA                   U.S. General Services Administration
 IA                    Interagency Agreement
 IG                    Inspector General
 IPIA                  Improper Payments Information Act
 IT                    Information Technology
 ITSO                 Information Technology Security Office
 IUS                  Internal Use Software
 MAF                  Master Address File
 NAICS                North American Industry Classification System
 NFC                  National Finance Center
 NIST                 National Institute of Standards and Technology
 OA                   Occupancy Agreement
 OIG                  Office of Inspector General
 OMB                  U.S. Office of Management and Budget
 OPM                  U.S. Office of Personnel Management
 PAR                  Performance and Accountability Report
 PC&P                 Periodic Censuses and Programs
 PII                  Personally Identifiable Information
 PMO                  Program Management Office
 PPM                  Policy And Procedures Manual	
 QSS                  Quarterly Service Survey
 RO                   Regional Office
 SAS                  Service Annual Survey
 S&E                  Salaries and Expenses
 SFFAC                Statement of Federal Financial Accounting Concepts
 SFFAS                Statement of Federal Financial Accounting Standards
 SIPP                 Survey of Income and Program Participation
 TIGER®               Topologically Integrated Geographic Encoding and Referencing System
 Treasury             U.S. Department of Treasury
 TSP                  Thrift Savings Plan
 WCF                  Working Capital Fund




92 FY 2010 Performance and Accountability Report	                                           U.S. Census Bureau
                 ACKNOWLEDGMENTS


                           This Performance and Accountability Report was pro-
                           duced with the energies and talents of the U.S. Census
                           Bureau staff. To these individuals we would like to offer
                           our sincerest thanks and acknowledgment.

                           We would also like to acknowledge the following divisions
                           and individuals for their contributions:

                           Margie Oates, Maria
                           Stanfield, and Natasha
                           Brown of Finance Division.
                           Camelia Carter and Sheryl
                           Williams of Budget Division.
                           Janet Sweeney, Donna Gillis,
                           Donald Meyd, and Crystal
                           Wade of Administrative and
                           ­Customer Services Division.

We would also like to acknowledge the Office of the
Inspector General and KPMG LLP for the professional
manner in which they conducted the audit of the FY2010
Financial Statements.

                                            We offer our special thanks to the
                                            Administrative and Customer Services
                                            Division for their outstanding contribu-
                                            tions in the design and production of
                                            this report.

                                            To send comments or obtain addi-
                                            tional information about this report,
                                            please e‑mail Census Performance
                                            Accountability Report Workgroup at
                                            <FIN.PAR.List@census.gov>.
